<html>
<title> - THE DOMESTIC CONSEQUENCES OF HEROIN USE</title>
<body><pre>[Senate Hearing 106-646]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-646



                THE DOMESTIC CONSEQUENCES OF HEROIN USE

=======================================================================

                                HEARING

                               before the

                     SENATE CAUCUS ON INTERNATIONAL
                           NARCOTICS CONTROL

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 9, 2000

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
64-838                      WASHINGTON : 2000




            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL
                       ONE HUNDRED SIXTH CONGRESS

                  CHARLES E. GRASSLEY, Iowa, Chairman
                  JOSEPH R. BIDEN, Delaware, Co-Chair
JEFF SESSIONS, Alabama               BOB GRAHAM, Florida
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
SPENCER ABRAHAM, Michigan
                    William J. Olson, Staff Director
                 Marcia S. Lee, Minority Staff Director




                            C O N T E N T S

                              ----------                              

                           Opening Statement

                                                                   Page
Sen. Charles E. Grassley.........................................     1
Sen. Joseph R. Biden, Jr.........................................     3

                                Panel I

Dr. Mitch Rosenthal, President, Phoenix House....................     7
    Prepared Statement...........................................     9
Kathryn, 19, Heroin Survivor.....................................    10
    Prepared Statement...........................................    11
Phillip, 19, Heroin Survivor.....................................    12
    Prepared Statement...........................................    13
Michael, 17, Heroin Survivor.....................................    13
    Prepared Statement...........................................    14
Dennis, 19, Heroin Survivor......................................    15
    Prepared Statement...........................................    16

                                Panel II

Mrs. Marie Allen, Mother of a Heroin Victim......................    26
    Prepared Statement...........................................    28
Ms. Jessica Hulsey, Daughter of Heroin Addicts...................    29
    Prepared Statement...........................................    32

                               Panel III

Dr. Charles O'Brien, M.D. Director, Center for Studies of 
  Addiction, University of Pennsylvania..........................    39
    Prepared Statement...........................................    49

 
                THE DOMESTIC CONSEQUENCES OF HEROIN USE

                              ----------                              - 
- -


                          TUESDAY, MAY 9, 2000

                      United States Senate,
                            Caucus on International
                                         Narcotics Control,
                                                    Washington, DC.
    The Caucus met, pursuant to notice, at 10:04 a.m., in Room 
SD-628, Dirksen Senate Office Building, Hon. Charles E. 
Grassley, chairman of the Caucus, presiding.
    Present: Senators Grassley and Biden.
    Senator Grassley. I would call the hearing of the Senate 
Caucus on International Narcotics Control to order, and I would 
welcome everybody. Thank you for coming, particularly those who 
have had to travel long distances to be here.
    I normally would wait until Senator Biden gets here before 
I start the meeting, but he is en route and his staff says it 
is okay to go ahead, and I kind of like to start meetings on 
time, if I can.
    Once again, for those of you who are visiting the hearing 
and not participating in it, I welcome everyone to this 
morning's hearing, and particularly our witnesses for the work 
that they have to do to get ready for our hearing, including 
travel.
    Our hearing today deals with an unhappy subject. We are 
going to look at the domestic effect of a new wave of heroin 
use. This is really a flesh-and-blood problem that touches all 
of us. We will hear what is happening in our homes and our 
schools across the Nation, in rich neighborhoods as well as 
poor, in our cities and our rural areas, and in the lives of 
our young people and their families.
    The story of what is happening is going to be told in the 
voices of those most affected, from addicts and their families, 
from those who must deal with this problem up close and very 
personally almost everyday. At the end of our story, I hope 
that we can all agree, and particularly others will agree with 
conclusions I have drawn that we have a problem that we must 
deal with. And we can't solve this problem by wringing our 
hands, but we must roll up our sleeves and go to work on it.
    No heroin consumed in this country is made here; every gram 
of it is grown in some foreign field, processed in some distant 
illegal lab, and smuggled into the country. It blossoms on the 
mountainsides of Mexico, Colombia, Afghanistan, Burma, and 
Laos. Heroin walks, floats, flies, and sneaks across our 
borders. It comes in all disguises and in many guises, and all 
of it is very bad.
    While the heroin used here comes from overseas, the 
consequences of its coming are felt in our homes, in our 
schools and our neighborhoods. Our young people are dying. It 
is American families who bear the burden and pay the price. 
Heroin is an equal opportunity destroyer; it blights inner 
cities, suburban neighborhoods, and rural communities alike. I 
fear that the problem is actually getting worse, and I am 
concerned that our current policies are simply not up to the 
challenge.
    Somewhere along the way, we lost the clear and consistent 
message that the only proper response to drugs is to say an 
emphatic ``no.'' Always coupled with that emphatic ``no'' was a 
message of how life-threatening drugs are and how damaging and 
dangerous they are.
    Now, we are supposed to be more sophisticated, supposed to 
be more tolerant, more willing to listen to notions of making 
dangerous drugs more available. But what all this ``more'' has 
meant is that we have more young people using more drugs and 
doing it at a much younger age. Today's heroin is cheaper and 
purer and more widely available. It is more aggressively 
marketed, and it is presented as being safer, as user-friendly.
    In the late 1980s and early 1990s, heroin had a bad rap; 
all drugs did. This is less true today. In the last seven 
years, heroin use among young people has doubled, and attitudes 
about the dangers of drugs have shifted. While it is thankfully 
true that most of our 12- to 20-year-olds still believe it is 
bad, the new heroin that we see on our streets and in our 
schools is marketed to avoid the bad stigma that it has had.
    The chief reason that the old heroin was seen as bad was 
because you needed a needle to use it. With the new heroin, you 
can get high on smoking or inhaling, at least at first. We now 
have well-monied think tank talking heads who preach that the 
only consequences of heroin addiction is some sort of mild case 
of constipation. The message is that our drug laws are 
dangerous and not the drugs. In such an environment, we should 
not be too surprised that an increasing number of young people 
should be persuaded that heroin is okay.
    Communities in Plano, Texas, and Orlando, Florida, learned 
a bad lesson, to their dismay, when dozens of high school kids 
died of heroin overdoses. I can think of no pain greater than 
that of a parent who must bid farewell to a child forever. It 
is somehow contrary to the natural order for a parent to be 
preceded in death by a child. But the pain of addiction is a 
spreading circle of hurt. As you will hear this morning, other 
communities are equally affected, and the hurt and the harm go 
even beyond death.
    Later today, I will offer legislation that I hope will help 
us address this problem. I am proposing that we look at the 
means to improve our prevention message to stop drug use before 
it starts. I hope to revitalize community and parent 
involvement. I propose increased resources for addiction 
research, and I am calling for a new initiative to support 
juvenile residential treatment programs that work.
    It is not just a new heroin that plagues us. Recently, 
designer drugs like methamphetamine, which is a major problem 
in my State of Iowa, and Ecstacy are flooding this country. 
Along with heroin, these are marketed to our young people as 
safe and friendly.
    Left unanswered, we will see another generation of young 
lives blighted. We will see families torn up by a widening 
circle of hurt from drug use. We cannot afford to go through 
this again, and I hope that we can begin today to renew our 
commitment to a drug-free future for our young people.
    We are going to let Senator Biden get a breath here and 
then we are going to turn to him for his opening comments. And 
then I will introduce the first panel. I need to also thank 
Senator Biden because he has been very faithful a long time 
before I was ever on this caucus to the work of the caucus and 
to carrying out a legislative agenda for the caucus as a senior 
member of the Judiciary Committee.
    You speak boldly about our problems with drugs. Thank you, 
and go ahead.
    Senator Biden. Thank you, Mr. Chairman. I want to thank you 
for convening this hearing today to focus on the resurgence of 
heroin, particularly heroin use among our young people, and to 
call attention to the havoc that it is wreaking throughout this 
country. It is not only in urban centers, as some of our 
witnesses will tell us; it is in small cities, it is in the 
leafy suburbs, and it is in rural areas.
    We are going to hear some pretty tough testimony today. 
Perhaps the toughest will be from Marie Allen, whose daughter 
Erin died from a heroin overdose at the age of 21. Ms. Allen 
testified at a hearing I held on this subject several months 
ago in Delaware.
    I had trouble convincing anyone in Delaware that heroin was 
coming. I had trouble even convincing my strongest allies in 
that community who usually listen and are listening now, the 
police. They kept saying, Joe, come on, we have got other 
problems. But it was clear--and you are going to hear it very 
clearly from the heart-breaking story Ms. Allen has to tell, 
and I commend her on having the nerve and the courage to speak 
to it. You are going to hear a lot today. I hope the world gets 
to hear it and our colleagues hear it.
    In 1991, I published a report. I publish a report every 
year that we refer to as the AlternativeNational Drug Strategy, 
and I have been doing it every year since we set up the drug czar's 
office in the late 1980s, in President Bush's first term. In 1991, we 
published a report warning that heroin was coming; heroin was coming 
back and was going to come back with a vengeance.
    When I first got here, Mr. Chairman, as a young Senator at 
age 30, President Nixon had led a successful fight against 
brown heroin coming from Mexico. We then had a period in the 
late 1970s when I wrote a report called ``The Sicilian 
Connection,'' about heroin coming out of Afghanistan through 
Turkey.
    In the 1991 report, the signs seemed pretty clear that a 
new, purer, more potent and more prevalent heroin, although at 
that time coming out of Southeast Asia because of the triad 
gangs moving out of Hong Kong in anticipation of the Brits 
losing control, moving to the upper Northwest, into Seattle, as 
well as Vancouver, Canada. Also, in that report we pointed out 
that Colombia was going to start producing heroin because they 
had pretty well saturated the cocaine market with processed 
cocaine that came out of Ecuador and Peru. Now, it is all in 
Colombia, I might add. They were going to pretty well figure 
out that, like all good business people, they needed a new 
product on their shelf, and the new product was going to be 
heroin.
    Today, we have nearly 1 million hard-core heroin addicts in 
the United States, but that is not the number that worries you 
or I the most, and I speak for myself, but I suspect you as 
well, Mr. Chairman. The numbers that worry us the most are the 
indicators that heroin is on the rise among the young, and that 
is why we have such talented young people here.
    I might note for the young people here, back in 1978 I got 
a group together thought to be the Nation's leaders in dealing 
with the problem relating to addiction. And I asked one 
individual who happened to be a professor at Harvard why 
somebody starts. I mean, you know, what is the reason at the 
front end? We all think there are a thousand reasons. It is 
economic, it is trouble at home. And when they start, why do 
they continue?
    I got an interesting answer. The answer I got was that the 
ones who start tend to be the brightest and the most engaging 
children among us. They are the ones who have the greatest 
potential. They are the ones who, when they were 7 years old, 
their mother told them not to cross the four-lane divided 
highway and they decided they could cross the four-lane divided 
highway. They are the chance-takers. They are the people who, 
when they go the right direction, become the great leaders of 
our country, and when they go the wrong direction become the 
addicts in our country if they try drugs.
    And I said, well, what makes them continue to use drugs? 
And he said it is the first experience, the first experience. 
If they tried heroin or they tried coke or they tried meth and 
they had a real bad experience with it, they usually didn't 
rush back to try it again. But if the first experience is 
pretty good, then that was the thing that kind of brought them 
back.
    And I know that sounds awfully simple-minded, but one of 
the things I have found in trying to learn as much as I can the 
last 28 years as a Senator on this subject is that young people 
who get addicted are the greatest waste in our country because 
they are among the most talented people in our country.
    The average age of the first-time heroin user is down. 
Heroin-related emergency room visits involving kids aged 12 to 
17, are up more than 720 percent in the last 10 years, and 
nearly 250 percent in the last 2 years. In the first half of 
1999, in my largest county, which is a medium-size county by 
national standards, New Castle County, roughly 500,000 people--
in New Castle County, Delaware, there were 71 heroin-related 
overdoses, 10 of which resulted in death. Fifteen of the 
overdoses, of the 71, involved children as young as 14 years of 
age.
    So why is heroin making such a big comeback? There is 
always the drug of the moment, we know. In the mid-1980s, it 
was crack. In the mid-1990s, it was methamphetamine. Today, it 
is heroin. Tomorrow, it will probably be Ecstacy. But why 
heroin now?
    I think there are two major reasons, and one of the reasons 
to have the hearing is to find out whether we are right about 
this. Now heroin is up to 90 percent pure--back in those days 
of the brown heroin, we were talking about 7, 8, 10 percent 
purity. It is ninety-percent pure in some cities, including 
Philadelphia, which is the feeder city for my town, for my 
State.
    Users can get high by smoking, snorting, or inhaling the 
drug. I learned from some of my friends, doctors, in the 
profession that back at the turn of the century there used to 
be a thing called ``chasing the dragon,'' and that was when 
heroin was pretty potent as well and you could literally smoke 
and inhale it and get up and follow the smoke rings to inhale 
it. I remember talking about that in 1992 and 1993, and people 
said, no, no, no, that is not going to happen again, that won't 
happen again, that is not how it works. Well, it sure as heck 
is working this way.
    Beautiful young women like Kathryn who may not have wanted, 
the first time she saw heroin--and I have never met her--to 
decide to take a needle and main-line it in her arm, would have 
found it a hell of a lot more attractive to smoke it or to 
snort it or to inhale it.
    You know, everybody wonders about crack cocaine. Crack 
cocaine, as the doctors among us will tell you, was a great 
equalizer. When I started in this business, Dr. Rosenthal, my 
recollection was in the mid-1970s, for every one woman who was 
addicted to drugs, there were four men. And along came crack, 
the great equalizer. It moved it almost one-to-one, and the 
reason it did is women, instead of snorting and distorting 
their nostrils, all they had to do was smoke it.
    So I am not at all surprised. Maybe I am wrong about this. 
Maybe I am being too simplistic, but I am not at all surprised 
heroin is on the rise in a galloping charge across this 
country. I predict to you we haven't even come close to seeing 
the peak of this epidemic. We are not even close, because of 
two reasons: price and purity.
    So I think there have to be some things we have got to do. 
I will not bore the caucus with them right now, but I am just 
going to tick them off without explaining them. I think there 
are steps we can take now and we should have taken 4 years ago 
and we can take now to stem what I think will be where this 
bubble is going to burst.
    The first is we have to invest more in prevention along the 
lines that Senator Grassley and I have suggested in the 
community anti-drug coalitions that are set up. Secondly, I 
think we have to have treatment tailored to patients' needs. I 
will explain these later, but 30 days doesn't do it. That is 
detox; it doesn't do it.
    Thirdly, I think we have to revitalize and reauthorize the 
drug courts. We have 492 drug courts and 96 juvenile drug 
courts in America. We could use three times that number.
    Fourth, we need some additional research. Ten years ago, I 
asked the question, if drug addiction is such an epidemic, why 
don't we try to find a medical cure. That led to the creation 
of the Medications Development Division at the National 
Institute of Drug Abuse. We haven't spent the money. I proposed 
10 years ago to spend $10 billion over the decade to develop 
pharmacotherapies that will aid in dealing with this, and we 
haven't done it.
    Can you imagine if this were the case with another disease? 
If you could eliminate one disease in this country that wreaks 
havoc upon our society in terms of crime and in terms of 
devastation for people, what would you do? It would seem to me 
the one I would pick would be drug and alcohol abuse, if I 
could eliminate anything that would have the greatest bang for 
the buck.
    Lastly, which is controversial here, I think we have to 
fund Plan Colombia. That is where all the heroin on the East 
Coast is coming from. All the heroin that is coming is pure, 
plentiful, and it is cheap. And the Colombians, I think, 
finally have a president named Pastrana who is totally 
committed to moving on the narcotraffickers, to give us at 
least a little bit of a breathing space to be able to deal with 
this larger problem.
    You have put together a great couple of panels, Mr. 
Chairman, and I want to thank you. No one in this room will 
understand except you and your staff--one of the reasons I like 
dealing with you is it is like the old days. There is nothing 
partisan about this deal. You asked me who I wanted as a 
witness. I told you my witnesses. You have your witnesses. It 
is not like the rest of this place runs, so it is a pleasure 
working with you on it. I think we have got great panels here 
and I look forward to hearing their testimony.
    I thank you for your time.
    Senator Grassley. I have had a good working relationship 
with Senator Biden through our years together in the Senate.
    Now, I am going to introduce this panel, and if I say 
something that is incorrect about any of the witnesses, I hope 
you will correct it because I am not here to say anything that 
is incorrect.
    Our first panel consists of Dr. Mitch Rosenthal, President 
and Founder of Phoenix House, in New York City. He founded 
Phoenix House in 1967 while then Deputy Director for 
Rehabilitation at New York City's addiction services agency. He 
now sits on the New York State Advisory Council on Alcoholism 
and Substance Abuse Services, and has been an adviser on drug 
policy to the White House and to the Office of National Drug 
Control Policy.
    Sitting here with Dr. Rosenthal are our other witnesses on 
this first panel, and before I introduce them I would like to 
thank you, as I have before, for your courage to come before 
this panel and to speak out on the experiences you had with the 
use of this dangerous drug.
    Kathryn began sniffing heroin at age 15. When she first 
began, she didn't know she was sniffing heroin, but she liked 
the feeling that it gave her. An A student from an upper-class 
California neighborhood, she was a star tennis player and 
athlete. She would often get high before a game and would get 
so sick that she would have to leave the court. She eventually 
began stealing from her parents to fund her habit and started 
living on the street. She has been at Phoenix House for over 
two months.
    Phillip began using heroin at age 14 and was introduced to 
it through a girl he was seeing at the time. From his first day 
he began using it, he stopped going to school regularly, lost 
his friends, and has overdosed at least seven times in five 
years. He entered Phoenix House three months ago.
    Michael started sniffing heroin when he was 13, trying it 
out of boredom. He quickly became addicted and spent the next 
four years shooting up. He dropped out of high school as the 
addiction consumed his life. He, too, began stealing money to 
fuel the drug habit and was eventually arrested for theft. He 
has been at Phoenix House now for 11 months.
    Then, finally, we have Dennis, who began using at around 
16. While on probation for theft, he was sent to a 
rehabilitation facility and began using again in order to 
prevent the pain of withdrawal symptoms, and also began selling 
in order to support his habit. He has been at Phoenix House now 
9 months. My staff has just reminded me that Dennis is now 18 
years of age.
    I want to welcome all of you, and we will start with you, 
Dr. Rosenthal, and then proceed according to the way I 
introduced you, if that is okay. Well, let's just go Kathryn, 
Phillip, Michael and Dennis, after Dr. Rosenthal.

 STATEMENT OF MITCHELL S. ROSENTHAL, M.D., PRESIDENT, PHOENIX 
                 HOUSE FOUNDATION, NEW YORK, NY

    Dr. Rosenthal. Mr. Chairman, Senator Biden, I am Mitch 
Rosenthal, a psychiatrist, President of Phoenix House, a 
national not-for-profit substance abuse treatment and 
prevention agency with more than 70 programs in 8 States.
    I am here with some of the young residents of Phoenix House 
to talk about the rising rate of youthful heroin addiction. 
Today, drug abuse is found everywhere. Despite popular 
preconceptions, it is not primarily an inner-city phenomenon. 
It is everybody's problem and every parent's fear.
    Drugs have long been part of suburban youth culture. Just 
about every middle-class kid, black, white or Hispanic, can get 
drugs. Most will try drugs, only today many are trying heroin 
and some are dying as a result. I want to talk about these 
youngsters and their parents. These are home-owning, health-
insured parents, and when they realize that their kids have an 
addiction, almost invariably they have no place to turn. 
Appropriate treatment for addicted adolescents is beyond the 
reach of all but a few families today. It is simply not 
available from private sector health plans or from government-
funded programs.
    What makes this problem critical is the growing number of 
adolescent heroin users. During the past decade, the average 
age of first-time use has fallen from above 26 to below 18, and 
nowhere is the incidence of heroin abuse rising faster than in 
the suburbs.
    In the New York metropolitan area, suburban high school and 
junior high students are twice as likely to be using heroin as 
students in the city itself. One reason may be the knowledge 
gap, a difference in experience, for most inner-city families 
know all too well the devastation of heroin addiction, while 
few suburban families share such memories.
    More important, however, may be the quality and cost of 
heroin today. It is cheaper now, stronger, and many times purer 
than ever before. Purity makes the heroin high easy to achieve 
without having to inject. But snorting or smoking heroin 
provides no barrier to addiction or to overdose, and most 
youngsters who start snorting eventually turn to injection.
    Not every teen who yields to peer pressure and smokes a 
joint is going to snort heroin. Those who do are generally 
troubled youngsters whose drug use offers relief from emotional 
pain. As they become deeply involved in illicit drug-taking, 
they become part of a different culture. Their enculturation 
involves the erosion of values, the corrosion of character, and 
adoption of the addict's lifestyle. So we should not be 
surprised when they engage in crime.
    How then do we deal with such self-destructive, alienated, 
and often anti-social young people? What they need is 
treatment, and the right kind of treatment. But as General 
Barry McCaffrey, our Director of ONDCP, admits, there is a 
significant treatment gap in America. For example, today, 
outside of prisons, there are only 12,000 to 14,000 beds in the 
kind of tough, demanding, drug-free residential programs like 
those of Phoenix House, and few of these beds are available for 
adolescents.
    Moreover, there is a notion prevalent in some circles that 
we should be able to deal with addiction in ways that are 
quick, easy, painless, and cheap. But there are no such 
solutions. Certainly, there is no solution that is quick. 
Recovery requires prolonged involvement in the treatment 
process. Yet, managed care companies today are cutting the once 
standard 28-day chemical dependency program to 7 days, even to 
4. And many government agencies now refuse to pay for what they 
call long-term treatment, which they define lasting longer than 
6 months, and in some counties 3 months.
    Recovery takes time. It involves much more than just 
getting off drugs. It includes changes in attitudes, changes in 
behavior, and changes in lifestyle. So effective treatment must 
address the underlying cause of drug abuse and direct itself to 
the barriers that prevent productive lives.
    Among treatment models that effect lasting changes in 
attitudes, values and behavior is the therapeutic community, or 
TC. NIDA-funded research has consistently shown it to be 
effective. It has demonstrated increasing flexibility and 
become available in a variety of formats. Among these is the 
Phoenix Academy, where teens in treatment, like the young 
people here today, make up learning lost to drugs in an 
environment that integrates treatment with education, work, and 
discipline.
    What makes therapeutic community treatment particularly 
appropriate for adolescents is its focus on behavior, on 
cognition, on values, and on morality. Within the highly 
structured treatment community, young people come to understand 
themselves and others, and take responsibility for themselves 
and others. This kind of treatment, however, is rare. Parents 
who look to HMOs to provide it for their children are not 
likely to find it, and there are all too few publicly-funded 
programs.
    So if the caucus asks me what is to be done, I would say, 
first, expand adolescent treatment and allocate a major share 
of new resources for therapeutic communities. I would say next 
that Government should help promote treatment much as it helps 
promote prevention. The goal should be to confront public 
ambivalence, to increase acceptance of and demand for 
treatment, and to overcome the widely held assumption that drug 
abuse treatment is largely ineffective.
    I would suggest a federally-funded advertising campaign 
targeting drug users and their families, encouraging acceptance 
of treatment, and making clear the responsibility of caring 
parents not only to seek treatment appropriate for their 
addicted children, but also to demand that their children 
accept it.
    Senators, the heroin problem may come from abroad, but 
addiction is a problem that is home-grown. And for youngsters 
like these, there can be no low-cost, high-speed intervention, 
no chemical shortcut. No quick fix will give them back the 
happy, normal teenage life held hostage by heroin.
    Thank you.
    [The prepared statement of Dr. Rosenthal follows:]

  Testimony of Mitchell S. Rosenthal, M.D., President, Phoenix House 
                               Foundation

    Chairman, Members of the Caucus: My name is Mitchell S. Rosenthal. 
I'm a psychiatrist and the president of Phoenix House, a national, 
nonprofit, substance abuse treatment and prevention agency, with a 
network of more than 70 programs in eight states.
    I am here today, with these young residents, in treatment at 
Phoenix House, to talk about some new and troubling developments on the 
drug scene.
    Today, drug abuse is found everywhere. Despite popular perceptions, 
it is not primarily an inner city phenomenon. It is everybody's 
problem, and every parent's fear.
    Drugs have long been part of suburban youth culture. Just about 
every middle class kid--black, white, or Hispanic--can get drugs. Most 
will try drugs. Only, today, the drug many are trying is heroin. And 
some who try go on to die.
    I want to talk about these youngsters, and about their parents--
home-owning, health-insured parents. When these parents awake to the 
fact of their children's addiction, they almost invariably find that 
there is no place for them to turn. Appropriate treatment for addicted 
adolescents is beyond the reach of all but a few families today. It is 
simply not available from private sector health plans or government-
funded programs.
    And this problem becomes more critical each day. Because, as the 
number of chronic heroin users in America has increased, over the past 
few years--from some 600,000 to close to a million--the ranks have 
swelled with growing numbers of young users. During the past decade, 
the average age of first-time heroin use has fallen from above 26 to 
below 18. And nowhere is the incidence of heroin abuse rising faster 
than in the suburbs.
    In the New York metropolitan area, high school and junior high 
students on suburban Long Island and in Westchester are twice as likely 
to be using heroin as students in the City itself.
    One reason suburban teens are now more likely to try heroin than 
their urban counterparts, may be because of a knowledge gap--a 
difference in experience. Most inner city families know all too well--
for they have seen up close--the devastation of heroin addiction. Few 
families in the suburbs share such memories.
    More important, however, may be the quality and cost of heroin 
today. It is cheaper than ever before--and stronger. The purity of 
street heroin has risen from 7 percent in the Eighties to better than 
40 percent today. In the Northeast, it's above 60 percent in New York 
and Boston, and at 75 percent in Philadelphia. These days, kids can get 
high on a bag costing less than 10 dollars.
    Purity makes the heroin high easier to achieve without having to 
inject. Youngsters who sniff or snort the drug often believe they can 
avoid addiction, as long as they don't use needles. But snorting or 
smoking heroin provides no barrier to dependence--or to overdose. 
Moreover, as tolerance develops and desire grows for a higher high--a 
stronger rush--most youngsters who start by snorting will turn to 
injection. And this adds blood-borne infections to the dangers of their 
addiction--including HIV and hepatitis C.
    Not every teen who yields to peer pressure and smokes a joint is 
going to snort heroin. Those who do are generally troubled youngsters--
angry, guilty, or afraid--whose drug use offers relief from pain. Then, 
when these adolescents become deeply involved in illicit drug taking--
when the getting and using of drugs is the central reality of their 
lives--they become part of a different culture.
    And while the rate of acculturation may vary, it involves, for all, 
the same erosion of values, the same corrosion of character, and 
adoption of the addict's distinctive lifestyle. And so, we should not 
be surprised when today's young heroin users engage in crime.
    How, then, do we deal with these troubled, self-destructive, 
alienated, and often anti-social young people?
    What they need is treatment--the right kind of treatment, for the 
right length of time.
    But, as General Barry McCaffrey, director of ONDCP, admits, there 
is ``a significant treatment gap'' in America today. Certain parts of 
the country have little treatment capacity of any sort. Some states, 
for example, have no methadone programs. And--outside of prisons--there 
are only 12,000 to 14,000 beds in tough, demanding drug-free 
residential programs like those of Phoenix House. And few of these beds 
are available for adolescents.
    There is a notion, now prevalent in some circles, that we should be 
able to deal with addiction in ways that are quick, easy, painless, and 
cheap, But, Senators, there are no such solutions.
    Certainly, there is no solution that is quick. Sustained recovery 
requires prolonged involvement in the treatment process. Yet private 
managed care companies today are cutting the once standard, 28-day 
chemical dependency program to seven days--even to four. Many 
government agencies now refuse to pay for ``long term'' treatment that 
lasts any longer than six months. And, in at least one jurisdiction, 
the maximum stay is now three months.
    Let's understand the recovery, which is the goal of treatment, 
consists of considerably more than quitting drugs. It involves changes 
in attitudes, behavior, and lifestyle. It means undoing the 
acculturation that serious drug involvement entails. So, effective 
treatment must address the underlying causes of drug abuse. For many 
hard-core drug abusers, treatment must also address the social, 
medical, educational, and vocational deficits that are barriers to 
productive new lives.
    Among treatment models we know to effect lasting changes in 
attitudes, values, and behavior is the therapeutic community or TC. It 
isn't the only such model. But it represents an approach to the 
treatment of substance abuse that NIDA-supported research has 
consistently shown to be effective. In recent years, it has 
demonstrated increasing flexibility, and become available in a variety 
of different formats. Among these formats is the Phoenix Academy model, 
the basis of treatment for adolescents at Phoenix House, where teens in 
treatment, like those with me today, can catch up on learning lost to 
drugs in an environment that integrates treatment with education, work, 
and discipline.
    There are other reasons that make therapeutic community treatment 
particularly appropriate for adolescents. These include the TC's focus 
on behavior, on cognition, on values and morality, and on problem 
solving and vocation. Within the highly structured environment of the 
treatment community, young people come to understand themselves and 
others, and take responsibility for themselves--and others. They learn 
to trust and buy into the TC's ``view of right living.''
    This kind of treatment, however, is rare. Parents who look to HMOs 
to provide it for their children are not likely to find it, and there 
are all too few publicly funded programs.
    So, if the members of this caucus were to ask me, ``What is to be 
done?'' I would say first expand adolescent treatment. And allocate a 
major share of new treatment resources for therapeutic communities.
    I would say next that government should help promote treatment in 
much the same way that it how helps promote prevention. The goals 
should be: to confront public ambivalence, to increase acceptance of 
and demand for treatment, and overcome the widely held, but readily 
disprovable, assumption that drug abuse treatment is largely 
ineffective.
    I would suggest a federally subsidized campaign, targeting drug 
users and their families. Messages should both encourage acceptance of 
treatment and make clear the responsibility of caring parents, not only 
to seek treatment appropriate for their addicted children, but also to 
demand that their children accept such treatment.
    Senators, the heroin may come from abroad, but the addiction 
problem is homegrown. And for youngsters like these, there can be no 
low-cost, high-speed interventions--no chemical shortcut. There is no 
quick fix that will give them back the happy, normal, teenage life held 
hostage by heroin.
    Thank you.

    Senator Grassley. Thank you, Dr. Rosenthal.
    Now, we go to Kathryn.

 STATEMENT OF KATHRYN, A HEROIN SURVIVOR, SAN JUAN CAPISTRANO, 
                               CA

    Kathryn. Good morning, Senator Grassley. My name is Kathryn 
Logan. I am 19 years old and I live in San Juan Capistrano, 
California. Four years ago, I was a straight-A student and a 
junior varsity tennis player. Just a few months ago I was 
living on the streets and physically sick from my drug use.
    When I snorted heroin for the first time, I didn't know it 
was heroin. I thought it was speed. As soon as I snorted it, I 
knew something wasn't right. First, I felt scared, but then I 
let the feeling take over and I began to like it. Once I 
realized I liked it, I continued to use heroin and speed even 
when I was in school. I would use it before geometry class and 
even tennis practice. Sometimes, the drugs would make me so 
sick that I would throw up mid-court right during a game.
    I was also using drugs in my car, at the beach, just blocks 
from my school, and virtually anyplace I went. My grades went 
down and I lost interest in sports, and I lost interest in my 
life. My drug use progressed to a point where I had to steal 
for my drug money. I stole from my parents and I even pawned my 
grandmother's ring for $25.
    Eventually, I was living on the streets. My parents didn't 
know where I was living. I looked horrible and I felt horrible. 
My stomach felt the worst. The drugs affected my heart and my 
stomach so badly that I wanted to stop. By the time I had been 
arrested several times for possession charges, the judge gave 
me the option of going to Phoenix House.
    Heroin and drugs, in general, affected my life in many 
ways, particularly my family life. I made life a nightmare for 
my family. My friends and my family used tough love on me and 
told me straight out, this isn't you, I can't talk to you 
anymore, and stay away. Even my dad, who had always been my 
best friend, had to tell me goodbye. When I saw him on 
Christmas Day, he couldn't kiss me or even look at me.
    Phoenix House taught me a lot. For instance, it is okay to 
mess up sometimes, as long as you are prepared to pay the 
consequences. Drugs are the road I took to denial, destruction, 
and self-abuse. I used the numbing of drugs to deal with pain 
and life's problems. The only advice I give to other people is 
to seek help. You are not alone. Millions of people in this 
world feel pain and despair at some point in their lives. When 
you need to cope with that pain, you can't do it alone. It is 
okay to say I need help. It is the first step to recovery and a 
healthy life.
    Thank you.
    [The prepared statement of Kathryn follows:]

 Testimony of Kathryn, May 9, 2000, Caucus on International Narcotics 
                                Control

    My name is Kathryn. I am 19 years old and I live in San Juan 
Capistrano, California. Four years ago, I was a straight ``A'' student 
and a junior varsity tennis player. Just a few months ago, I was living 
on the streets and physically sick from my drug use.
    When I snorted heroin for the first time, I didn't know it was 
heroin. I thought it was speed. As soon as I snorted it, I knew 
something wasn't right. First I felt scared. But, then I let the 
feeling take over and I liked it.
    Once I realized I liked it, I continued to use heroin and speed--
even when I was in school. I'd use it before geometry class and even 
tennis practice. Sometimes the drugs would make me so sick that I'd 
throw up mid-game right on the tennis court. I was also using drugs in 
my car, at the beach, just blocks from my school, and virtually any 
place I went. My grades went down, I lost interest in sports, and I 
lost interest in my life.
    My drug use progressed to a point where I had to steal for my drug 
money. I stole from my parents and I even pawned my grandmother's ring 
for $25. Eventually, I was living on the streets. My parents didn't 
know where I was living. I looked horrible and I felt horrible. My 
stomach felt the worst. The drugs affected my heart and my stomach so 
badly that I finally wanted to stop. By that time, I had been arrested 
several times for drug possession and the judge gave me the option of 
going to Phoenix House.
    Heroin and drugs in general affected my life in many ways, 
particularly my family life. I made life a nightmare for my family. My 
friends and family used ``tough love'' on me and told me straight out 
``this isn't you,'' ``I can't talk to you any more,'' and ``stay 
away.'' Even my dad, who had always been my best friend, had to tell me 
goodbye. When I saw him on Christmas day, he couldn't kiss me or even 
look at me.
    Phoenix House taught me a lot. For instance, it's o.k. to mess up 
sometimes, but you should be prepared to pay the consequences. Drugs 
are the road I took to denial, destruction and self-abuse. I used the 
numbing of drugs to deal with pain and life's problems.
    The only advice I'd give to other people is to seek help. You are 
not alone. Millions of people in this world feel pain and despair at 
some point in their life. When you need to cope with that pain, you 
can't do it alone. It's o.k. to say ``I need help''. It's the first 
step to recovery and a healthy life. Thank you.

    Senator Grassley. Thank you, Kathryn.
    Now, Phillip.

      STATEMENT OF PHILLIP, A HEROIN SURVIVOR, SELDEN, NY

    Phillip. Good morning. My name is Phillip. I am 19 years 
old and I live in Selden, New York. The first time I sniffed 
heroin, I was 14 years old. By the time I was 16, I was 
shooting up. I had stopped going to school regularly and I had 
lost most of my friends.
    When I was 14, I never thought I would use heroin, even 
though there were people I looked up to who used it. But my 
first real girlfriend was older than me and she gave me the 
drug. Even then, I didn't know it was heroin. I thought I was 
sniffing ketamine. After sniffing it for a week, I found out it 
was heroin. By that time, I was already addicted.
    I did manage to stop for about two days, but I started 
again because my girlfriend encouraged me. I had tried many 
other drugs, but none of them ever made me feel as good as 
heroin. Heroin made me feel like I was on top of the world. You 
feel like no one can harm you. You can talk to anybody because 
you feel so confident and so free, and you just love everything 
you see.
    From the day I started sniffing heroin, I stopped going to 
school on a regular basis. I had missed more than 50 days in a 
school year. At age 16, 2 years into my addiction, I started 
shooting up. I also started losing friends. I was manipulating 
people and doing pretty much whatever I had to so that I would 
feel better and not be in withdrawal.
    I was stealing from stores, family and friends, and I was 
going to risky areas to buy drugs. I overdosed at least seven 
times. Eventually, I got left back in the 11th grade and 
dropped out of school. The first time I entered drug treatment, 
I left and got caught shoplifting. Now, I am back at Phoenix 
House for four months.
    My heroin use has affected my life in many ways. I had so 
many goals that I have lost. My health and family relationships 
have also suffered. I have learned a lot since the day I walked 
in the door at Phoenix House. I have learned that treatment for 
heroin addiction is not a simple process and it doesn't happen 
overnight. It takes a lot of time. I am also very thankful that 
I was able to get this kind of drug treatment. Without it, I 
would probably not be here today.
    The only advice I have for people is making their children 
more aware. Talk to them and have a good relationship with 
them, know the friends they hang out, know their families, and 
make sure their schools are safe.
    Thank you.
    [The prepared statement of Phillip follows:]

 Testimony of Phillip, May 9, 2000, Caucus on International Narcotics 
                                Control

    My name is Phillip. I am 19 years old and I live in Selden, New 
York. The first time I sniffed heroin, I was 14 years old. By the time 
I was 16, I was shooting up, I had stopped going to school regularly, 
and I had lost most of my friends.
    When I was 14, I never thought I would use heroin even though there 
were people I looked up to who used it. But, my first real girlfriend 
was older than me, and she gave me the drug. Even then, I didn't know 
it was heroin. I thought I was sniffing ketamin. After sniffing it for 
a week, I found out it was heroin. By that time, I was already 
addicted.
    I did manage to stop for about two days, but I started again 
because my girlfriend encouraged me. I had tried many other drugs, but 
none of them ever made me feel as good as heroin. Heroin made me feel 
like I was on top of the world. You feel like nobody can harm you--you 
can talk to anybody because you feel so confident and so free, and you 
just love everything you see.
    From the day I started sniffing heroin, I stopped going to school 
on a regular basis. I had missed more than 50 days in a school year. At 
age 16, two years into my addiction, I started shooting up. I also 
started losing friends. I was manipulating people and doing pretty much 
whatever I had to so that I would feel better and not be in withdrawal. 
I was stealing from stores, families and friends, and I was going to 
risky areas to buy drugs. I overdosed at least five times.
    Eventually, I got left back in the eleventh grade and dropped out 
of school. The first time I entered drug treatment, I left and got 
caught shiplifting. Now, I'm back at the Phoenix Academy for four 
months.
    My heroin use has affected my life in many ways. I had so many 
goals that I've lost. My health and family relationships have also 
suffered.
    I've learned a lot since that day I walked in the door of the 
Phoenix Academy. I've learned that treatment for heroin addiction is 
not a simple process and it doesn't happen overnight. It takes a lot of 
time. I am also very thankful that I was able to get this kind of drug 
treatment. Without it, I would probably not be here today.
    The only advice I have for people is make your children more aware. 
Talk to them and have a good relationship with them. Know the friends 
they hang out with, know their families, and make sure their schools 
are safe.

    Senator Grassley. I hope a lot of young people will listen 
to that advice, or even parents will listen to that advice you 
just gave us.
    We now go to Michael.

    STATEMENT OF MICHAEL, A HEROIN SURVIVOR, LINDENHURST, NY

    Michael. Good morning. My name is Michael. I am 17 years 
old and I am from Lindenhurst, Long Island, New York. I am a 
recovering heroin addict who is trying to restore his life 
after a 4-year addiction.
    Before I started using drugs, I was a popular, clean kid 
with dreams. Just one year later, I hit rock bottom. I was 
robbing people, stealing cars, burglarizing houses. I was even 
robbing my family, all for heroin. I started sniffing and 
eventually intravenously using heroin at the age of 13. I was 
bored with my town, I was bored with my friends, with my 
family. Most of all, I was bored with my life.
    An acquaintance of mine gave me the heroin, and it 
immediately made me feel relaxed and at ease. It made me feel 
older, and it took away all the hurt and pain that was present 
in my life. It felt so good that I spent the next few years 
shooting heroin, and my addiction grew stronger and stronger. I 
ended up with no real friends, just people to get high with. 
They would stab me in the back any chance they had and I would 
do the same to them.
    I was arrested several times for assaults, all related to 
my drug addiction. But my addiction did not let the law slow me 
down at all. I felt like I was a slave to the addiction and I 
would do anything it bid me to do. I dropped out of school 
because of the powerful grip heroin had on my life. I was 
either too high or too sick from withdrawal to go to class, but 
I had no regrets about it at the time. In my mind, I thought it 
was better because it gave me more time to hustle and find ways 
to go to New York City to purchase my heroin.
    Finally, when I was 17 years old, desperate for heroin and 
going through withdrawal, I burglarized an apartment. By the 
grace of God, these actions led me to Phoenix House Academy of 
Long Island. When I was sent to Phoenix House, I felt like it 
was my chance to get my life back on track. I have nothing but 
appreciation for my judge and the DEA, who gave me the chance 
to live again.
    Since I have been in treatment, I have learned a lot about 
myself, my addiction, and the effect it has had on my life. 
Heroin controlled my life and I would do anything for it. My 
addiction also ruined my family life. My parents lost all trust 
in me, but no matter how hard it hurt them, the only thing they 
could really do was bite their lip and hopefully wait until I 
asked for help.
    I have also learned a lot about myself and my addiction. 
Phoenix House taught me how to deal with my irrational beliefs 
and feelings. I have also learned that I am not worthless. I am 
worth the time that Phoenix House Academy and I have put in to 
build up my self-esteem.
    My advice to people that have the same problem I had is to 
ask for help and never give up on themselves because the moment 
they do is the moment they lose everything.
    Thank you.
    [The prepared statement of Michael follows:]

 Testimony of Michael, May 9, 2000, Caucus on International Narcotics 
                                Control

    My name is Michael. I am 17 years old and I am from Lindenhurst, 
New York. I am a recovering heroin addict who is trying to restore his 
life after four years of addiction. Before I started using drugs, I was 
a popular, clean kid with dreams. Just one year later, I hit rock 
bottom. I was robbing people, stealing cars, burglarizing homes and 
even robbing my family--all for heroin.
    I started sniffing heroin when I was 13. I was bored--bored with my 
town, bored with my friends and my family, and bored with life. An 
acquaintance gave me the heroin, and it immediately made me feel 
relaxed and at ease. It made me feel older, and it took away any hurt 
or pain that was present in my life.
    It felt so good that I spent the next few years shooting heroin and 
my addiction grew stronger and stronger. I ended up with no real 
friends--just people to get high with. They would stab me in the back 
any chance they could and I would do the same to them. I was arrested 
several times for assaults that were related to my addiction. But my 
addiction did not let the law slow me down at all. I felt like I was a 
slave to the addiction and I would do anything it bid me to do.
    I dropped out of school because of the powerful grip heroin had on 
my life. I was either too high or too sick to go to classes. But, I had 
no regrets about it at that time. In my mind, I thought it was better 
this way because it gave me more time to hustle and find ways to go to 
New York City to buy heroin.
    Finally, when I was 17, desperate for heroin and going through 
withdrawals, I burglarized an apartment. By the grace of god, these 
actions led me to the Phoenix House Academy of Long Island. When I was 
sent to Phoenix House, I felt like it was my chance to get my life back 
on track. I have nothing but appreciation for my judge and the DEA who 
gave me the opportunity to live again.
    Since I have been in treatment, I have learned a lot about my 
myself, my addiction, and the effects it has had on my life. Heroin 
controlled my life and I would do anything for it. My addition also 
ruined my family life. My parents lost all trust in me. It hurt my 
parents to see me going through painful withdrawals. But no matter how 
hard it hurt, they could only bite their lips and wait until I asked 
for help.
    I have also learned a lot about myself and my addiction. Phoenix 
House has taught me to deal with my irrational beliefs and feelings. 
I've also learned that I am not worthless. I am worth the time that 
Phoenix House and I have put in to build up my self esteem. My advice 
to people that have the same problem I had is to ask for help and never 
give up on yourself--because the moment you do, you lose everything.

    Senator Grassley. Thank you for that advice.
    Now, Dennis.

     STATEMENT OF DENNIS, A HEROIN SURVIVOR, EAST ISLIP, NY

    Dennis. Good morning. My name is Dennis. I am 19 years old. 
I am from East Islip, New York. I was 16 years old when I first 
started snorting heroin. Before I started snoring heroin, I had 
a baseball scholarship and sports were my life. Two years 
later, heroin was my life. Although I was one of the best 
baseball players at my high school, I didn't feel comfortable 
with myself at school and I looked for a new crowd. The crowd I 
turned to used drugs and seemed to be more exciting.
    Drugs quickly took me down a destructive path. About a year 
after I started, I received five years of probation for 
stealing a car and burglary. While I was on probation, another 
drug user suggested that I try heroin. I first sniffed heroin 
out of curiosity. I was told it would make me feel good. I was 
also told that heroin left your system in a couple of days so 
that I could pass my drug test for probation.
    Heroin made me feel warm inside, and also numb to all my 
feelings, and it was cheap and easy to obtain. I used heroin 
for 10 months. Eventually, I failed the drug test. As a result, 
I was sent to a 28-day rehabilitation center. Six months after 
leaving that facility, I began using heroin again, and found 
that I had to keep taking the drug to avoid withdrawal 
symptoms. I also had to begin selling the drug to support my 
habit. After I failed another drug test, I had a choice of 
going to jail or to Phoenix House. So I came to the Phoenix 
House Academy in Lake Ronkonkoma.
    Heroin had a powerful impact on my life. I did nothing but 
get high, and also sleep. I wound up dropping out of school and 
I stopped playing sports, which had been my life before drugs. 
My friends were constantly wondering what was wrong with me 
because they wouldn't hear from me for days. My parents would 
often not be able to find me because I would be in a hotel 
sniffing heroin and cocaine with other drug users. I was able 
to keep my heroin use a secret until I started selling it. At 
that point, I almost cleaned out my parents' house from 
stealing so much from them to support my habit.
    Since entering treatment at Phoenix House Academy, I have 
learned a great deal about myself, heroin, and other drugs. I 
have learned that I can be myself and deal with my issues and 
problems without the help of a substance. It also helps to see 
older people in treatment and hear their stories. I got a 
chance to realize where my life could have gone if I continued 
to do drugs. I learned to take on my responsibilities instead 
of neglecting them to get high. I also learned to communicate 
with my family and others on a sober and positive level. The 
biggest thing I have learned is just to be myself and honest, 
and all the other things will fall into place.
    I would advise people to take heroin and its powers very 
seriously. For parents, I would advise them to become more 
educated about drugs and addiction, and start teaching their 
kids at a young age because I have noticed that kids are 
starting younger and younger. For teenagers, I would tell them 
that they don't need a drug that will hurt them in the long run 
to get their feelings and deal with their everyday problems. It 
would be better just to be themselves and go on with their 
lives.
    Thank you.
    [The prepared statement of Dennis follows:]

  Testimony of Dennis, May 9, 2000, Caucus on International Narcotics 
                                Control

    My name is Dennis. I am 19 years old and I am from East Islip, New 
York. I was 16 years old when I first started snorting heroin. Before I 
started using drugs, I had a college baseball scholarship and sports 
were my life. Two years later, heroin was my life.
    Although I was one of the best baseball players at my high school, 
I didn't feel comfortable with myself at school and I looked for a new 
group of friends. The crowd I turned to used drugs and just seemed to 
be more exciting.
    Drugs quickly took me down a destructive path. About a year after I 
started, I had received five years of probation for stealing a car and 
burglary. While I was on probation, another drug user suggested I try 
heroin. I first sniffed heroin out of curiosity. I was told it would 
make me feel good. I was also told that heroin left your system in a 
couple of days so that I could pass my drug tests for probation. Heroin 
made me feel warm inside--also numb to all my feelings and problems. 
And, it was cheap and easy to obtain.
    I used heroin for ten months and eventually failed a drug test. As 
a result, I was sent to a 28-day rehabilitation facility. Six months 
after leaving that facility, I began using heroin again and found I had 
to keep taking the drug to avoid withdrawal symptoms. I also had to 
begin selling the drug to support my habit. After I failed another drug 
test, I had a choice of going to jail or going to Phoenix House, so I 
came to the Phoenix House Academy in Ronkonkoma.
    Heroin had a powerful effect on my life. I did nothing but get high 
and sleep. I wound up dropping out of school and I stopped playing 
sports, which had been my life before drugs.
    My friends were constantly wondering what was wrong with me because 
they wouldn't hear from me for days. My parents would often not be able 
to find me because I'd be in a hotel sniffing heroin and cocaine with 
other drug users. I was able to keep my heroin use a secret until I 
started to sell it. At that point, I almost cleaned out my parents' 
house from stealing so much from them to support my habit.
    Since entering treatment at the Phoenix Academy, I've learned a 
great deal about myself, heroin and other drugs. I've learned that I 
can be myself and deal with my issues and problems without the help of 
a substance. It also helps to see older people in treatment and hear 
their stories. I got a chance to realize where my life could have gone 
if I continued to do drugs. I've learned to take on my responsibilities 
instead of neglecting them to get high. I also learned to communicate 
with my family and others on a sober and positive level. The biggest 
thing I've learned is just to be myself and honest, and all the other 
things will fall into place.
    I would advise people to take heroin and its powers seriously. For 
parents, I would advise them to become more educated about drugs and 
addiction and to start teaching their kids at a young age--because I've 
noticed that a lot of kids are starting younger and younger. For 
teenagers, I would tell them that they don't need a drug that will hurt 
them in the long run to get along with others or to hide and deal with 
everyday problems. They should just be themselves and do all they can 
with their lives.

    Senator Grassley. Thank you, and happy birthday yesterday. 
Am I right on that? It was your birthday?
    Dennis. Yes. Thank you.
    Senator Grassley. Dr. Rosenthal, I will start with you and 
then I will ask some of the young people questions.
    Do you see heroin use becoming a drug of choice for teens 
and young adults, and would you say there is a definite trend 
toward increased use?
    Dr. Rosenthal. Well, there is definitely an increased use. 
But, you know, a teenager who starts to use drugs regularly, 
whether the drug that they start to use regularly is marijuana 
or is Ecstasy, easily moves to other drugs not just over a 
period of time, but soon. In the course of one day, somebody 
may be using three different drugs, and the seriousness of 
their drug use and the dysfunction that comes from their drug 
use is not just a function of how powerful the pharmacology is, 
but how vulnerable the youngster is in terms of their 
psychology as well.
    Senator Grassley. What would you recommend to parents about 
this heroin problem that we are dealing with? Maybe there is no 
different recommendation than you do for other drugs, but if 
there is a difference, let me know.
    Dr. Rosenthal. Well, I think there is a real--what I said 
earlier--a real knowledge gap in parts of this country about 
the fact that heroin is such a threat and exists within their 
community. I have talked in recent months to the families where 
there have been tragedies and these families were shocked that 
heroin was a piece of the action. You know, they could imagine 
that their kids maybe use some marijuana. Maybe there was a 
little use of cocaine, but they couldn't believe that heroin 
was a part of it.
    Senator Grassley. Now, I am going to ask the young people. 
I won't direct the question to a specific one of you, and all 
four of you don't necessarily have to answer every question, 
but when you have got something to contribute, I hope you will 
try to answer the question, particularly if your experiences 
are somewhat different than another one of the young people.
    When you first began, what did people tell you about the 
drug that you were taking, heroin?
    Michael. People would tell me that it was a dirty drug and 
only really like low-life people did it. But I sort of ignored 
them and did it anyway because it made me feel good and made 
other people, like my associates, my acquaintances, feel good.
    Senator Grassley. Anybody else?
    Phillip. Well, I really didn't know much about it, but I 
pretty much knew that older people did it. And when I found out 
that the younger people that I looked up to were doing it and I 
found out that you could sniff it, I tried it and I immediately 
got hooked to it.
    Senator Grassley. How easy was it for you to obtain heroin?
    Phillip. It was real easy. In the town, Selden, where I am 
from, I could pretty much get it every night I would try. It 
was so easy to get it.
    Senator Grassley. Kathryn.
    Kathryn. Where I grew up, in Orange County, California, it 
is as easy as picking up a telephone, really. All you have to 
do is call somebody, use their pager, or even walk down to the 
street corner and you will end up running into somebody that 
can either get it or has it themselves.
    Senator Grassley. Michael.
    Michael. In my town, it is just as similar as my peer, 
Kathryn. It is just as easy as picking up a phone or jumping in 
a car and driving up the block to cop--I should say purchase 
heroin.
    Senator Grassley. Dennis.
    Dennis. Yes. In my town, it is not commonly spread, but 
before coming to treatment I noticed that it was starting to 
become more powerful in my town. But it is really just 
throughout the years of using any other drug that I have used 
and any of my peers have used, you meet people along the way 
and it becomes easy to obtain.
    Senator Grassley. What lengths did any of you go to in an 
effort to hide your addiction?
    Michael. Any length I had to meet to be able to hide it 
from my parents, from the school, basically from all of 
society.
    Senator Grassley. Kathryn.
    Kathryn. I was what you called a closet drug addict for a 
while. I was hiding it from everybody, doing it behind closed 
doors, behind bushes, in my car. I was doing it anywhere that I 
could and hiding it as much as possible and not letting anybody 
know that I was doing it. And even when I was doing it, I would 
tell people that I had quit. If they had found I was doing it, 
I would say, no, I am not doing it anymore. Why are you 
suspecting me of that? You know, how rude is that? But yet I 
was still doing it.
    Senator Biden. Including your friends?
    Kathryn. Including friends and family.
    Senator Grassley. Phillip.
    Phillip. When I started doing it, I was such a happy kid 
that I didn't even have to hide it. It took my parents to find 
out--they didn't find out until the first time I overdosed in 
the house and my mom found me overdosed for them to find out 
that I was doing it.
    Senator Grassley. How easy is it to find drugs in the 
schools that you were attending before you left school?
    Phillip. It was real easy to find drugs in my school.
    Senator Grassley. From other students or from adults in the 
school?
    Phillip. From the older kids, pretty much down to 9th 
grade.
    Senator Grassley. Okay.
    Phillip. When I went to my school, Center Ridge High 
School, right when I went in there, I was seeing stuff that I 
never knew about, drugs outside, finding needles on the ground. 
It was just horrible. Drugs were everywhere. Pretty much, kids 
would just see it.
    Kathryn. For me, a lot of the teachers taught drug 
education. We had something called Health Academy and we had a 
whole entire section on drugs, which actually made me a lot 
more curious about them. I obtained it very easily. There was 
always somebody that knew how to get it, where to get it.
    I grew up in a fairly rich community at Dana Hills High 
School, and if you couldn't find it at school, the neighboring 
houses around the school--you could always knock on somebody's 
door and obtain it that way.
    Senator Grassley. Dennis.
    Dennis. Yes. At East Islip High School in New York where I 
am from, heroin along with any other drug was really just--
there were separate people that would have like each drug every 
day, every lunch period, every period. And it would be so easy 
to obtain, all you would have to do is just give a little blink 
of the eye or a little hand motion; come on, let's go into the 
bathroom. And all you have got to do is have the money and then 
you make your switch.
    Senator Grassley. Did the school authorities know about the 
problem that you have just described in your respective 
schools?
    Dennis.
    Dennis. Yes, my high school was fully aware. You know, I 
have done work with my high school over my recovery. In the 
past nine months, I have spoken to students. I spoke to a 
doctor there, a psychiatrist there, and they are fully aware 
and they really don't know what to do. They are trying to get 
advice.
    Kathryn. In my high school, I think the teachers and the 
principals and staff, they were more aware of the cigarette 
smoking and the drinking and the marijuana. I don't think they 
wanted to believe that people from a rich community would ever 
do heroin or speed or any other type of drug like that. They 
weren't trying to focus on that. They were just focusing on the 
marijuana and they didn't really stress any other drugs as 
much.
    Senator Grassley. This will be my last question and then I 
will go to Senator Biden.
    What advice would you have for parents, like what they 
should look for. How can parents better recognize the signs of 
drug use by their kids? I think I would ask all four of you to 
respond to that.
    Kathryn. I think that parents should really recognize 
eating changes, attitude changes when they become less attached 
to the family; not wanting to go to family functions, not as 
happy with their surroundings, not liking who they are with; 
who their friends are, not introducing their friends to their 
parents, not wanting to bring friends over; the red eyes, the 
loss of weight, marks on their arms, self-mutilation, stuff 
like that.
    Phillip. I think parents should look for in their children 
if they are isolating a lot, if they have a lack of interest in 
school, sports, whatever they do, and just watch for them being 
depressed. And if they are not around the house as much, then 
you can pretty much see that something is going on with them.
    Senator Grassley. Michael.
    Michael. I would advise them to look for sleeping habits, 
attitudes, ignoring of family life, and also eating habits, 
like my peer Kathryn said, very important, and also looking for 
the lack of hobbies that maybe their child used to have that 
seem to float away from them and also ignore them, too.
    Dennis. I would have to advise parents to look for, as 
everyone said, like eating, sleeping; also, lack of motivation 
to all the interests that they had previous to using drugs; a 
very large decrease in their grades at school, and effort that 
they are putting into everyday life, responsibilities, interest 
in family, all the above that everyone else just mentioned.
    Senator Grassley. Thank you.
    Before Senator Biden, I wanted to ask Dr. Rosenthal not a 
question, but ask you to look at my bill that I put together 
that would have therapeutic community support and see if the 
bill meets some of the needs that we have. We will get you a 
copy of it.
    I would also like to ask Senator Biden or his staff to take 
a look at it and see if there are any changes or whether you 
could support it as is or if it fits your needs.
    Dr. Rosenthal. We would be glad to.
    Senator Grassley. Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Let me start with the young people. You know, in my 
experience of doing this you use the phrase that it is 
``available''. Parents don't know what you mean by 
``available,'' that you can walk next door to the house and get 
it. So to be very blunt, your testimony is not very helpful 
that way. Any parent listening to what you have just said says, 
what do you mean now?
    The first time that you purchased a drug, how did you do 
it? Give me a specific example, because nobody walks into an 
8th grade and walks into a new school, having never used a 
drug, and walks in and says, ah-hah, I can see the hand signal, 
I can see this, I can see that, I know to go there, or knows 
what house to go to next door and walks up and just knocks on 
the door. That is not how it happens. So when you say it is 
easy to get, parents listen to this and adults who have never 
used drugs listen to this and they wonder what the hell you 
mean. They don't know what it means specifically.
    Now, before you answer the question, let me ask an 
antecedent question because I want to go back to that. Was 
heroin the first drug you used, and if not, what did you start 
with?
    Kathryn.
    Kathryn. Heroin was not the first drug I used. At the age 
of 9, I had been drinking, taking sips off of other people's 
drinks at family functions, stuff like that. Then I got into 
marijuana and prescription drugs, sniffing it. And then heroin 
came along after the cocaine, LSD, Ecstasy, Special K, stuff 
like that.
    Senator Biden. So you were familiar with, you were 
accustomed to--the only thing new to you was the actual drug, 
not the culture, not how to get it, not the way in which you 
would consume it, ``way'' meaning that you would be off by 
yourself. You had worked out a way where you could do these 
other things that you thought you were hiding or able to hide 
from other people. And it was down the road--considerably in 
your case not in age, not in time, but in terms of other 
abuses--that you finally got to heroin. Is that right?
    Kathryn. That is right.
    Senator Biden. Phil, how about you?
    Phillip. I started drinking alcohol when I was 12 years 
old, going to middle school, and I just started moving up to 
harder drugs, smoking pot when I was 13 getting ready to go 
into 9th grade. And then I just started trying little harder 
drugs, and then it eventually got to heroin.
    Senator Biden. Mike.
    Michael. I started smoking marijuana when I was 11 years 
old. Around 12 years old, I was already purchasing LSD and PCP.
    Senator Biden. Denny, how about you?
    Dennis. At the age of 13, I started using alcohol and 
marijuana. By the time I was 15, I was addicted to cocaine, and 
then at the age of 16 introduced through another client in my 
probation department to the drug heroin.
    Senator Biden. Doctor, that is not at all unusual, is it, 
what you just heard?
    Dr. Rosenthal. It is very typical.
    Senator Biden. How often, in your experience, is it that a 
kid gets introduced to heroin right off the bat?
    Dr. Rosenthal. Almost never.
    Senator Biden. Which leads me to the next question--Parents 
who watch this and adults who watch it kind of wonder, well, 
you know, when we focus on heroin, we are focusing on heroin, 
and to their mind it is as if heroin would be the drug of first 
use. In your experience, doctor, the parent who is dumbfounded 
that their child was consuming heroin and had become addicted 
to heroin, on balance, are they usually aware that the child 
was abusing some drug prior to that, prior to their knowledge 
of the heroin?
    Dr. Rosenthal. They don't see the early drug use as an 
abuse. They see it almost as a rite of passage.
    Senator Biden. Right.
    Dr. Rosenthal. In other words, there has been a change in 
expectation, so the parent says, yes, my 14-year-old went to a 
party, there was some alcohol there, it is no big thing. So 
there is an escalation of drug use on the adolescent's part and 
the parent is deluded, thinking that this is a very 
insignificant phenomenon which is going on.
    Senator Biden. I have parents tell me, well, you know, 
everybody drinks in high school, everybody goes through thator, 
you know, everybody tries pot. What they really do, I find, is they 
engage in self-delusion that, you know, it is almost a ``sit and hope'' 
that it is alcohol and not marijuana. Then they hope it is marijuana 
and not cocaine.
    Dr. Rosenthal. Well, they think that alcohol use is normal, 
and it has become a kind of normalized phenomenon. And many of 
them think that pot use is normal as well.
    Senator Biden. So almost everybody that gets to Phoenix 
House is a polyabuser, aren't they?
    Dr. Rosenthal. That is correct.
    Senator Biden. Let me ask the young adults, shift positions 
with your parents. You were sitting there at age 35 when your--
I am making the ages up--when your 9-year-old daughter was 
taking sips out of other people's cocktails at the cocktail 
party, or you were 35 or 25 or 40 when your child, at 12, was 
experimenting with a drug, and so on.
    In your view, what would you think they could have done or 
should have done? This is not meant to criticize your parents. 
I am trying to get at this issue of we all say parents should 
recognize what is going on, and once they recognize it, they 
should take certain actions.
    Looking back on it, what do you wish your parents had done 
that you think might have kept you from being at this table 
testifying before a United States Senate committee?
    Dennis. I feel that it would have been better for my 
parents to be more knowledgeable, more educated about the 
effects that drugs take on people, not even adolescents, people 
in general, and that they could have noticed that something was 
wrong with me and somehow applied that much pressure to help me 
change.
    Senator Biden. Well, let me jump ahead here. I speak to a 
lot of high schools around the country and around my State, and 
it is an interesting thing. I have been doing this for 15 
years. I ask high school students, I say don't tell me whether 
or not you use drugs, but I want everybody in this auditorium 
to raise their hand who either uses themselves or knows someone 
who is a good friend who does use drugs. So raising your hand 
won't mean you use it, just you know somebody in your school, 
in this auditorium, who uses drugs. Now, they all may know the 
same one person, but about 80 percent raise their hand.
    And then I go and I ask them the following question. How 
many of you know somebody who you think needs help now, needs 
some intervention. And they do just what you are doing; they 
raise their hand. Now, they may be raising their hand for 
themselves, they may be raising their hand for a friend, but an 
awful lot. I mean, I don't want to put a number on it because 
it is not a scientific survey, but well over a third and 
sometimes as much as a half.
    Now, one of the things that happens in this environment is 
I ask students, I say, how would you feel--and I am not 
proposing this; I want to make it clear to the press listening 
here and everyone else, I am not proposing this. But I ask the 
questions in high schools, I say, how many of you would like it 
if there were random drug testing in your school. Ironically, 
more than half raise their hand because half are looking for an 
excuse.
    If you had random drug testing in 8th grade, I wonder 
whether or not you would have used those drugs, because you 
still wanted to play baseball, didn't you?
    Dennis. Yes, but it really depends on the consequences and 
how severe they would be if you were to come up positive for 
any drugs in your system.
    Senator Biden. Well, in most schools in particularly 
suburban areas, the consequence in 8th grade or 9th grade is 
your parents know about it, and that usually is a daunting 
consequence to most people who aren't hardened users by the 
time they are in 7th, 8th, 9th and 10th grade.
    The reason I raise it--and my time is up--one of the things 
we are trying to figure out is what is it. I mean, there is 
overwhelming evidence--one of the leading guys in the country 
is sitting behind you and is going to testify shortly. One of 
the things that I have found from everyone I have talked to 
over the last 20 years is there is pretty much a pattern here. 
I mean, this isn't rocket science; it is pretty quick and easy 
to understand.
    You usually don't start off even with cocaine. You usually 
don't start off with heroin. You usually don't start with 
speed. It happens sometimes. You get drunk and all of a sudden 
you have got speed. You get drunk and all of a sudden you are 
doing such-and-such. But it usually starts off with smoking and 
drinking, just being familiar with how to smoke, just the 
familiarity, just the comfort zone of having something in your 
hand, knowing how to inhale, knowing how to exhale. It gets 
familiar and it usually begins with a comfort zone of knowing 
how it feels to get a little buzz on when you have drunk three 
beers in 9th grade or whatever you have done.
    One of the things that is the hardest thing to communicate, 
doctor, is, okay, parents look for these signs. Parents don't 
want to be cops. We tell parents, you know, trust your 
children, and so parents don't want to drug test you when you 
come into 8th or 9th or 10th grade, or make you take a 
breathalyzer test. And you all are pretty good; you can hide 
stuff pretty well. So it gets to be a real difficult problem.
    I am not making excuses for parents, and I think that the 
attitude, doctor, you have said, especially in the surveys we 
have done in the last four years--when I go around to parents 
groups, I say this isn't your father's marijuana, this isn't 
the stuff in 1970. The marijuana out there is not the stuff in 
1966. This is 10, 12, 14 times more potent, this is a different 
deal, and your experience of having tried it and walked away 
from it as a rite of passage may not be your child's 
experience.
    So at any rate, my time is up, but I just wish you would 
think for us about what are the things that you really believe 
in your heart that your parents could have done that you think 
you would do with your children if it were reversed.
    Kathryn? Then I will stop, Mr. Chairman.
    Kathryn. I believe that parents that are more open with 
their children starting at a younger age, able to be able to 
talk to them, having a trusting relationship so that not only 
the child can be trustworthy of the parents but the parents can 
be trustworthy of the child, and they both have an open 
relationship with each other and share secrets and share things 
that they wouldn't tell anybody else.
    Senator Biden. When they share secrets, Kathryn, let me ask 
you an example because it gets down to judgment. If you had an 
open relationship when you were in 7th grade and you said, mom, 
after that party, I drank some of the vodka that was there, or 
whatever, what would you have expected your mom to say to you 
if she were open and the perfect mom?
    Kathryn. If my mom was the perfect mom?
    Senator Biden. Yes. What is the perfect answer to a child 
who tells you that?
    Kathryn. Don't do it again, or you are grounded, or 
something like that. But what I have seen from my past and from 
my friends that have really convincing and open parents is they 
tend to not be more efficient and use drugs in their life as 
much. They actually get to talk to their parents and get advice 
from their parents, not just hide it from their parents and 
shut the door on them, because that is what I did. I never 
talked to my parents. My parents were rarely around when I was 
younger. If they were, it was just, yes, school was nice, I am 
going to go to my room now. It was never, how was your day, you 
know, stuff that actually means stuff to you.
    Senator Biden. So that corny stuff you hear on television 
which says that one of the most important things to do is have 
dinner with your children every night--do you all think that is 
important?
    Kathryn. Definitely.
    Senator Biden. But you guys are pretty tough guys. I mean, 
do you think that is a good thing? What do you think you would 
have thought when you were 13 years old if they made you come 
in every night and sit down and have dinner with them?
    Dennis. To tell you the honest truth, the way that I grew 
up, I don't think I would have listened to them anyway. I made 
a comment before about education and knowledge for the parents, 
but it is really out there, no matter what; drugs are out there 
in schools, on the streets, anywhere. So there is so much a 
parent can do, but it is really up to our decision.
    Dr. Rosenthal. Even if we are sharing confidences and we 
are very connected with our kids and very empathic, in the end 
parents have to be parents and they have to be willing to hold 
the line and they have to be willing to say no, and they have 
to be at times real tough about it. They can get help. If 
schools were testing, they could get help. Or if pediatricians 
were testing, they could get help because the list of signs and 
symptoms that the panel gave here is really a first-rate list. 
It is all significant, but none of it gives you absolute 
certainty one way or the other. So in the end, there are other 
steps that have to be taken.
    Senator Biden. Well, I thank you all very much. You are 
really good to come here, and I sincerely wish you all the luck 
in the world. You have got a long way to go. It is a tough 
fight, a tough, tough, tough fight, and I pray to God you all 
are able to continue. I wish you luck, and you have contributed 
a lot to helping us understand the problem today. I wish you 
luck. Stay with it. It isn't ever over.
    Dr. Rosenthal. Thank you.
    Senator Grassley. And I thank you all for coming, too, and 
not only sharing with us today, but I hope that your 
experiences in life thus far can be used on your own initiative 
to help others who are having trouble or to avoid trouble in 
the first place. In fact, that would better.
    Senator Biden. Mr. Chairman, can I ask Dr. Rosenthal one 
quick question?
    Senator Grassley. Yes, please do.
    Senator Biden. Doctor, one of the things that surprised me 
15 years ago doing a series of hearings--we did about 100 
hours' worth of hearings on this, and it surprised me that 
treatment regimes that work for drug abuse--the success rate 
among those where there was forced treatment as opposed to 
treatment that was voluntary essentially revealed the same 
response.
    Dr. Rosenthal. Fifteen years later, the data is still the 
same. Coercion into treatment will give you just as good an 
outcome as somebody who knocks on the door. In fact, it is the 
very rare drug abuser that ever wakes up and says, you know, my 
life is terrible, I am out of control, I can't stop, let me go 
for treatment. Almost invariably, whether it is a parent, a 
judge, a probation officer, or a wife, somebody is making the 
demand for somebody to go into treatment. Almost all treatment 
is coerced, and the outcomes can be terrific under those 
circumstances. As you pointed out in your earlier remarks, so 
many of these youngsters are really winners. And given the 
opportunity for good treatment, they will become winners.
    Senator Biden. We have to figure out how to communicate to 
the public, which I have been trying to do for 15 years, what 
works.
    Dr. Rosenthal. Well, you have taken very big steps in the 
prevention advertising campaign, a very positive initiative. I 
think we need to do a similar kind of campaign for treatment 
because treatment does not have a good name. All of the 28-day 
stuff over many years and all of the public failures have given 
treatment a bad name. We need to have treatment get a good 
name, and then we need to have the means to provide it.
    When the County of Los Angeles has 150 beds, or the whole 
State of New York has 500 beds, and they are leading States in 
the country for adolescent treatment, we have got a very bad 
situation. So I am encouraged.
    Senator Biden. What does it cost you per patient at Phoenix 
House on a yearly basis?
    Dr. Rosenthal. If you look at the adolescent services which 
we are talking about, they run between $50 and $100 per day, 
per youngster, depending on size, State regulations, staffing 
patterns, and so forth.
    Senator Biden.  And we are talking about an average 
treatment period in Phoenix House of how long?
    Dr. Rosenthal. A year.
    Senator Biden. A year, so we are talking about as much as 
$36,000 a year and as little as $18,000 a year?
    Dr. Rosenthal. Correct.
    Senator Biden. The reason I say that is we have to be 
honest with our colleagues and with the public when we say that 
if we had, in effect, treatment programs that lasted a year for 
polyabuser kids who are genuine addicts in a Phoenix-like 
program, we would be talking about spending, ironically, about 
the same amount of money we spend to put them in prison.
    Dr. Rosenthal. Well, it is more expensive if you put them 
in prison, and each arrest and arraignment, and so forth, 
starts running up very large bills. And we have to do more to 
get the States to carry their part. Too many States are not 
putting up enough tax levy dollars to match what you are doing.
    Senator Biden. Thank you very much.
    Senator Grassley. Thank you all very much.
    I will call the second panel now. Our next panel has two 
witnesses who will talk about the effects of heroin on the 
family. Mrs. Marie Allen's daughter Erin was addicted to heroin 
and her addiction claimed her life. Mrs. Allen now works with 
the New Castle County Police Heroin Alert Team in an effort to 
raise public awareness. She is also a member of the Heroin 
Hurts support group, which has over 150 families in Delaware 
and Maryland.
    Then we have Ms. Jessica Hulsey, who knows firsthand about 
the effect addiction has on families. Her parents are addicted. 
She currently works as a policy analyst for Civic Solutions 
here in Washington. She has been nationally recognized for her 
work in drug prevention and community services. Among her many 
accomplishments are working as Co-chairman of the Drug-Free 
Communities Commission, Director of Training and Technology of 
the Community Anti-Drug Coalitions of America, and she has also 
organized a drug prevention and monitoring program for Corner 
House Counseling Centers in Princeton, New Jersey.
    We will start with Mrs. Allen and then Ms. Hulsey. Thank 
you both for being here.

                    STATEMENT OF MARIE ALLEN

    Mrs. Allen. Good morning. My name is Marie Allen. I am the 
mother of Erin Allen. My daughter Erin fought two addictions. 
The first was to alcohol. It started in her early teens. Many 
rehabs and hospitals later, Erin had finally gotten control of 
her life. Her second addiction was to heroin. This one, 
however, had total control of her life until the day she died.
    One night while Erin was attending an AA meeting, someone 
offered her heroin. For whatever reason, Erin tried it. She 
snorted it the first time, and she told me later that she was 
addicted from that day on. It wasn't long before Erin was 
injecting the heroin. She continued to use heroin for two 
years. She drove to Philadelphia, into Kensington, several 
times a day, everyday. She went into places that you and I 
would never go.
    At one point of her addiction, Erin was spending $250 a 
day, and she did whatever she had to to get that money. She 
sold everything she owned. She sold other people's things. She 
stole from her family and her friends. She was turning into 
someone that I didn't recognize. Her arms were bruised from 
needles. Her weight had dropped to 98 pounds. She had had a 
heart attack and she was having trouble breathing.
    That is when Erin started going to the methadone clinic. 
She went there for five months, but she still felt the need to 
use heroin. She decided that the methadone wasn't working for 
her. She detoxed off the methadone and got into a treatment 
center. After only two days, her cravings were so strong, she 
left the rehab and she came to my place of business and stole 
my car. She went straight to Kensington.
    While she was there, she had the car stolen from her. She 
was beaten, raped, and left in the street. Someone found Erin 
and brought her into their home, cleaned her up, and let her 
use the phone. Erin called a friend of ours, Pat, who lives in 
Philadelphia. Pat is also a family therapist who had been 
working with our family. She told Pat that she desperately 
needed help.
    Pat picked Erin up and told her she had two choices. She 
could turn herself in for the car theft or she could continue 
to live the way she had been living. Erin chose to turn herself 
in. At her hearing for the felony car theft, my husband and I 
told the judge that we would drop the charges if Erin could get 
some kind of help for her heroin addiction. The judge agreed 
and sentenced Erin to a rehab in Wilmington called the Crest. 
The Crest is part of our prison system.
    There weren't any beds available right away, so Erin had to 
wait five months in the women's prison. While she was in 
prison, she got no drug counseling. Finally, a bed became 
available at the Crest and Erin was accepted. She had been 
there four months when she had gotten out on work release. She 
got a job at a coffee shop. She would go to work in the morning 
and then back to the Crest after work. By this time, Erin had 
been clean for nine months.
    She called me one night and asked me if I would take her to 
work the following day. She needed to get some blood work done 
and she was afraid that if she took the bus that she would be 
late for work. I picked Erin up early in the morning. We went 
and got her blood work done. When Erin came out of the office, 
she was upset. She was crying, shaking, doubled over with 
stomach pains. It was like she was going through withdrawal.
    She told me when the nurse put the needle in her arm to 
take the blood, it triggered something. It made her think about 
using heroin. It brought back a lot of feelings and cravings. I 
tried to tell Erin to put it out of her mind, to not think 
about it. When we got to her work, Erin brought me into a 
little chapel that was next door. She told me she went there 
every morning to pray. We sat and talked for a while and Erin 
seemed to have calmed down a little bit, and we both needed to 
get to work.
    Erin walked me out to my car. She gave me a hug and a kiss 
and she said, ``I love you, mom,'' and I said, ``I love you, 
too.'' I watched her go in to work.
    Senator Biden. Take your time. We have got a lot of time. 
Take your time.
    Mrs. Allen. Later that night, I got a call from the Crest. 
They said that Erin didn't return from work. She said if she 
wasn't back by 11:00, they were going to put a warrant out for 
her arrest. I got worried and I called my friend, Pat. I had a 
bad feeling that Erin might have gone into Kensington. I asked 
Pat if she would go look for her. Pat did go out a couple 
nights, and on the last night she spotted Erin in Kensington 
and they made eye contact, and Erin got into a car with someone 
and they drove off. Pat tried to catch up to them, but they 
lost her. That was the first time that Erin had run away from 
help.
    The next day, I was at work when I got a call from the 
Philadelphia coroner's office. They said that they had my 
daughter; she was dead from a heroin overdose. When my husband 
and I got to the coroner's office, it was the most impersonal 
experience I ever had. I felt like to them this was just 
another dead junkie. This was something that they see everyday. 
They put my husband and I in a room, they turned on a computer 
screen, and on the screen was Erin's face.
    Since April of 1998, I have been working with the New 
Castle County Police. They have put together an educational 
program on the effects of heroin. At the end of their 
presentation, I tell Erin's story. We have presented this 
program close to 800 times in Delaware, Maryland, New Jersey, 
and Pennsylvania. Delaware has had 74 heroin-related deaths in 
the past 2 years. In New Castle County last year, we had 144 
overdoses, and the youngest was 14.
    I have met parents who have lost their children to heroin, 
and I have met parents who are dealing with the pain of an 
addicted child. Insurance companies don't acknowledge this 
addiction as a disease and they don't give adequate time for 
rehabilitation. Anyone with any knowledge of this addiction 
knows 7 to 28 days is not enough. Treating heroin addiction is 
an ongoing process, and treatment does work. People are being 
turned away from detox because there are no beds available. We 
have no juvenile detox in Delaware.
    I am a member of Heroin Hurts, a support group for families 
and friends of heroin addicts. We started with 5 members in 
1998, and at last count we have over 200 families in Delaware 
and Maryland. Education is essential, but we can't forget the 
thousands of young addicts that can't get the help that they 
need to survive. Heroin addiction is an epidemic in this 
country, and I will continue to tell Erin's story in an effort 
to raise awareness and hopefully save lives.
    Thank you for inviting me to be part of this important 
hearing. I would like to ask all of you here today to join 
Heroin Hurts on September 16th for Delaware's Second Annual 
Anti-Drug March. I will be marching for the future of your 
children.
    Thank you.
    [The prepared statement of Mrs. Allen follows:]

Statement of Mrs. Marie Allen, Senate Caucus on International Narcotics 
                Control--Domestic Consequences of Heroin

    My daughter Erin fought two addictions, the first was alcohol and 
started in her early teens, many rehabs and hospitals later, Erin had 
gotten control of her life. Her second addiction was to HEROIN. This 
one however had total control of her life until the day she died.
    One night while attending an AA meeting Erin was offered HEROIN, 
for whatever reason, Erin tried it. She snorted in that time and she 
told me later she was addicted from that day on. It wasn't long before 
Erin was injecting HEROIN.
    She continued to use HEROIN for two years. She went to Philly into 
Kensington several times a day, every day. She went into places you and 
I would never go. At the worst point of her addiction, Erin was 
spending $250 a day. She did whatever she had to, to get that money. 
She sold everything she owned, she sold other peoples things, she stole 
from her family and friends.
    She was turning into someone I didn't recognize, her arms were 
bruised from needles, her weight dropped to 98 lbs., she had a heart 
attack and was having trouble breathing. That's when Erin started going 
to the methadone clinic. She went there for five months, but she still 
felt the need to use HEROIN. She detoxed off the methadone and got into 
a treatment center. After only two days, her cravings were so strong, 
she left the rehab, came to my place of business and stole my car. She 
went straight to Kensington. While she was there she had the car stolen 
from her, she was beaten, raped and left in the street. Someone found 
Erin, brought her into their home and let her use the phone. Erin 
called a friend of ours, Pat, she is a family therapist who had been 
working with our family. Pat told her she had two choices. Turn herself 
in for the car theft or continue to live the way she had been living. 
Erin chose to turn herself in. At her hearing for the felony car theft, 
we told the judge we would drop the charges if Erin could get some kind 
of help for her HEROIN addiction. The judge agreed and sentenced Erin 
to a rehab called the Crest, its part of our prison system. No beds 
were available so Erin had to wait five months in the women's prison 
where she received no drug counseling. A bed became available at the 
Crest and Erin was accepted. After four months, she got out on work 
release. She got a job at a coffee shop. After work she would return to 
the Crest. She called me one night to ask if I would take her to work 
the next day. She needed to get some blood work done. I picked Erin up 
early in the morning and she got her blood work done. When she came out 
of the office, she was crying, shaking, doubled over with stomach 
pains, she said when the nurse put the needle in her arm, it triggered 
something, it made her think about using HEROIN, it brought back all 
the feelings and cravings. When we got to her work, Erin brought me 
into a little Chapel that was next door. She told me she went there 
every morning to pray. Erin seemed to have calmed down and we both had 
to get to work. Erin walked me to my car, gave me a hug and a kiss and 
said ``I love you mom,'' I said ``I love you too.'' I watched as she 
went into work. Later that night I got a call from the Crest, Erin 
didn't return from work. I got worried and called my friend Pat, I had 
a bad feeling that Erin might have gone to Kensington. I asked Pat if 
she would look for her. Pat went out a couple nights and the last night 
spotted Erin, but Erin got into a car with someone and took off. Pat 
couldn't catch up to them. The next day I was at work when I got a call 
from the Philadelphia Coroners office. They said they had Erin. She was 
dead from a HEROIN overdose. When my husband and I got there, they put 
us in a room, turned on the computer screen and on the screen was 
Erin's face.
    Since April of 1998, I have been working with the New Castle County 
Police. They have put together an educational program on the effects of 
HEROIN. At the end of their presentation I tell Erin's story. We have 
presented this program close to 800 times, in Delaware, Maryland, New 
Jersey and Pennsylvania. I have met parents who have lost their 
children to HEROIN and I have met parents who are dealing with the pain 
of an addicted child. Insurance companies don't acknowledge this 
addiction as a disease and do not give adequate time for 
rehabilitation. Anyone with any knowledge of this addiction knows 7 to 
28 days is not enough. People are being turned away from detox because 
there are no beds available. Education is essential, but we can't 
forget the thousands of young addicts that can't get the help they need 
to survive. Heroin addiction is an epidemic in this country and I will 
continue to tell Erin's story in an effort to raise awareness and 
hopefully save lives.

    Senator Grassley. Thank you, Mrs. Allen. I know it is tough 
to relate that story, but thank you for doing it for everybody.
    Ms. Hulsey.

                 STATEMENT OF JESSICA M. HULSEY

    Ms. Hulsey. Thank you, Senator Grassley and Senator Biden, 
for holding this important hearing on the consequences of 
heroin use. I have a few brief remarks and ask that my 
testimony be submitted into the record.
    Senator Grassley. Your testimony will be included in the 
record in total.
    Ms. Hulsey. Thank you.
    My first memory as a child is of watching my father shoot 
up heroin. I was visiting my grandmother for a long weekend and 
I was next door at my neighbor Mabel's house and I was helping 
her bake cookies, I believe. And I explained to her in detail 
all of the trappings of the trade and how to go about step by 
step to shoot up heroin. I was 3 years old.
    Senator Biden. How old were you?
    Ms. Hulsey. Three.
    Senator Biden. Three.
    Ms. Hulsey. My second memory is waiting outside the door 
while my mom was with a john. She resorted to prostitution to 
pay for her heroin addiction. Even at 4 and 5 years old, I was 
aware of the drugs my parents used. I was aware of what it did 
to them. I was aware of what it did to me, and I hated drugs, 
particularly heroin.
    I have never used drugs. I didn't use alcohol or marijuana 
in high school or in college. I am 23 years old now and I have 
been working on drug prevention efforts since I was 14. I have 
tried to use all that I have learned from my parents and from 
other family members, and share that with others and hopefully 
influence their decision so they do not use drugs. My father is 
still a heroin addict and my mother is a recovering heroin 
addict.
    I have a little sister who is now 21 years old. We have 
been affected by drug abuse on all sides of our lives. My 
sister was born addicted to methadone, and a child between us 
was lost to drugs. While living with our parents in Long Beach, 
California, we would go days without eating. We lived in parked 
cars and motels and on the streets. We didn't have clothes, and 
when our family members would buy us clothing, my mother would 
take it back, turn it in for money to pay for her drug 
addiction.
    We were very consistently babysitted by a drug dealer named 
Margie, and we were left alone in cars for hours while my mom 
worked the streets. My sister and I were infested with lice, 
didn't go to school half the time, and were very much neglected 
because of our parents' abuse of drugs.
    One day, police officers and our family members found my 
sister and I in a parked car in Signal Hill, in Long Beach, 
California, and we had been there for about half the day. We 
were taken away and placed in a foster care facility. We stayed 
there for about two weeks and then saw a judge, and he awarded 
my maternal grandmother temporary guardianship.
    I remember that day very well because when you live in vans 
and motel rooms with cockroaches the size of your foot, going 
to my grandmother's house was like heaven. We had these two 
gorgeous twin beds with these blue striped bedspreads and a 
huge backyard with a swing set, and it was the best thing in 
the world.
    My parents unfortunately are not the sole drug addicts in 
our family. Every uncle, every aunt, my sister, and my 
grandfather have all suffered from drug addiction or alcohol 
abuse. Generations and generations of drug and alcohol abuse 
make up my family tree. My grandfather, who raised me until I 
was 16 when he and my grandmother were divorced, overdosed on 
alcohol and prescription medications when I was 16 years old. I 
woke up in the middle of the night to find him lying on the 
floor of his bedroom foaming at the mouth, and it was very, 
very upsetting. He was about 60 years old at the time.
    My uncle Gordy was my favorite uncle in the entire world. 
He was sort of a surrogate father to me. He began using heroin 
probably around the same time that my parents did, and when I 
was about 8 years old he was killed. He had started 
manufacturing methamphetamine to pay for his addiction. And the 
individuals in the drug trade aren't always the most 
respectable, so a bad deal went down and he was murdered. He 
was found two months later in a ditch. He had been wrapped in 
carpet, and the only way they could identify him was by his 
tatoos. My uncle Gordy owned his own business. He was a very 
successful businessman. He had a son and a wife and really a 
wonderful life, and he threw it all away for heroin.
    Another one of my uncles was shot while burglarizing a home 
to pay for his heroin addiction. He was paralyzed from the 
shots and then he continued to use heroin. He overdosed a few 
years later. He was still addicted and he was still paralyzed, 
but he was still my uncle.
    I saw my father in September 1999. It had been probably a 
year since I had seen him last and a lot had happened in my 
life. I had graduated from Princeton University and moved to 
D.C. and gotten a new job. But my father didn't care about any 
of those things. All he wanted was $10. He didn't want to know 
how is your life going, what is your boyfriend's name, what do 
you do for a living, how is life going. He wanted $10 for a 
fix.
    About a month ago, my father called me to ask for help to 
get into treatment, which was very unexpected and a very happy 
day because I thought, at 48, my father is going to turn his 
life around. So I worked very hard with some good friends and 
we were making progress, and then a week ago I got a call from 
my dad in the hospital. He had gone there because various body 
parts don't seem to function for him any longer. He told me he 
has about three months to live.
    His heroin addiction of 30 years has taken quite a toll on 
his body. He has cancer in his brain, lungs, and in his spine, 
and the spinal tumor has caused paralysis from the waste down. 
He has lesions all over his body where the poisons from his 
body and his drug use leak out just sort of uncontrollably, and 
he is very sick. My mother has been in recovery for 14 years. 
She was diagnosed with hepatitis C a few years ago and is 
trying to take good care of her health, but she constantly 
struggles with her addiction day in and day out even 14 years 
later.
    Drug abuse is not a victimless crime. There are millions of 
children like me in this country, millions. They suffer from 
abuse and neglect because of their parents' drug addictions. 
Over the past 10 years, fueled by alcohol and illegal drugs, 
the number of abused and neglected children has more than 
doubled, from 1.4 million in 1986 to more than 3 million in 
1997. And 2.4 million children in this country have a parent in 
prison for a drug-related offense--2.4 million children.
    Drug use causes or exacerbates most cases of child neglect 
and abuse. The National Center on Addiction and Substance Abuse 
at Columbia University estimates that substance abuse and 
addiction is the chief culprit in at least 70 percent of all 
child welfare spending. We, the children of drug-addicted 
parents, need your help, and your support and commitment to our 
safety.
    I have only a few recommendations for the caucus and then I 
will close my remarks. First, I believe that we need to invest 
in prevention. My life turned around at 14 when I was 
introduced to a community coalition in Orange County, 
California, called Drug Use Is Life Abuse. I started speaking; 
I was part of organizations where I work with my peers on these 
issues. I traveled here to Washington, D.C., and worked with 
CADCA and other organizations, and it really is the turning 
point in my life.
    Second, I think that treatment needs to be available for 
all who need it. I have learned how hard it is in the last 
month to find treatment for someone who is ready to benefit 
from it and someone who desperately needs it, and there is so 
little available out there.
    Third, something I feel very strongly about, we need to 
protect the children of addicts. When people are incarcerated 
for drug-related offenses, if they have children I think they 
need to be incorporated into how we look at the problem. They 
need to be protected by our systems.
    And, lastly, I really do believe that we need to increase 
awareness. I think the biggest threat is this myth of safety of 
heroin that is sort of popping up again. Because you smoke or 
snort something doesn't make it less dangerous than injecting 
it into your arm. And I really believe that awareness needs to 
be raised on this issue so we can protect the lives of our 
young people across this country.
    Thank you so much for your leadership on this issue. I look 
forward to any questions.
    [The prepared statement of Ms. Hulsey follows:]

Testimony of Jessica M. Hulsey, Tuesday, May 9, 2000, Civic Solutions, 
  Before the Senate Caucus on International Narcotics Control on the 
                  Domestic Consequences of Heroin Use

    Thank you Mr. Chairman and other members of the Caucus for holding 
this important hearing on the consequences of heroin use. I have a few, 
brief remarks, and ask that my testimony be submitted into the record.
    My first memory as a child is of watching my father shoot up 
heroin. I must have been about 3 years old. My second memory is waiting 
outside the door while my mom was with a john. Even at four and five 
years old I was aware of the drugs my parents used. I was aware of what 
it did to them. I was aware of what they did to me.
    My father is still a heroin addict, and my mother is a recovering 
heroin addict.
    I have a little sister who is now 21 years old. We have spent our 
lives affected on every side by the devastation of drug abuse, 
particularly heroin. My sister was born addicted and a child in between 
us was lost because of heroin use. While living with our parents, we 
were undernourished, improperly clothed, and homeless. We were babysat 
by a drug dealer named Margie and left in cars alone for hours while 
our mother prostituted herself to pay for drugs.
    One day we were discovered in a parked car by police officers. We 
had been there for half the day. We were taken away and placed in a 
foster care facility until we could be released to our maternal 
grandparents. We thankfully left the uncertainty and fear of living in 
motels and cars for a real home.
    My parents are not the sole drug addicts in our family: every 
uncle, every aunt, my grandfather, half of my cousins and even my 
little sister have struggled with drug abuse. There has been little 
chance of escape for us. Generations of drug and alcohol abuse make up 
my family tree.
    My favorite uncle, my Uncle Gordy, was like a father to me in the 
absence of my own. I adored him with every ounce of my 8 year old 
heart. He started using heroin and even began manufacturing 
methamphetamines. As you well know, this is not a responsible or humane 
industry. He had a run-in with a client and was killed. He was given a 
hot shot in a motel room. A jogger found him wrapped in carpet and 
lying in a ditch two months later. My Uncle Gordy had been a successful 
business man--had owned his own business. He was adored. His son was 
only five years old. Yet my uncle died cruelly. His heroin addiction 
was to blame.
    Another of my uncles was shot while burglarizing a home for money 
to pay for heroin. The bullet paralyzed him from the waist down. 
Regardless, he continued to use heroin. He overdosed and died--still 
addicted, still paralyzed, but still my uncle.
    I saw my father only a few months ago. I spent an hour with him. 
All he wanted from me was $10 dollars to get a fix. $10. Not a minute 
with his daughter. Not a hug or a kiss or a conversation. He wanted 
that $10 dollars. One month ago my father called andasked for help. He 
wanted to enter a treatment program. I tried very hard to find a 
program for him, but nothing was available. Our country's treatment 
providers are overburdened and unable to provide the services that so 
many desperately need. Unfortunately, my father's search for treatment 
came too late. 25 years of heroin addiction has taken its toll. He is 
in the hospital and has been told by doctors that he has less than a 
year to live. He is 48 years old.
    My mother has been in recovery for 14 years. She was diagnosed with 
Hepatitis C a few years ago, but is taking good care of her health.
Drug Endangered Children
    Drug abuse is not a victimless crime. There are millions of 
children like me in this country. Millions. They suffer from abuse and 
neglect because of their parents drug addiction.
    Over the past 10 years, fueled by alcohol and illegal drugs, the 
number of abused and neglected children has more than doubled--from 1.4 
million in 1986 to more than 3 million in 1997.\1\ And 2.4 million 
children in this country have a parent in prison for a drug-related 
offense. 2.4 million children. And drug use causes or exacerbates most 
cases of child neglect and abuse. The National Center on Addiction and 
Substance Abuse at Columbia University (CASA) estimates that substance 
abuse and addition is the chief culprit in at least 70 percent of all 
child welfare spending.
---------------------------------------------------------------------------
    \1\ Footnotes at end of statement.
---------------------------------------------------------------------------
    Over the past 10 years, fueled by alcohol and illegal drugs, the 
number of abused and neglected children has more than doubled--from 1.4 
million in 1986 to more than 3 million in 1997, a rise more than eight 
times greater than the increase in the children's population (114.2 
percent compared to 13.9 percent).\2\
    Substance abuse causes or exacerbates 7 out of 10 cases of child 
abuse or neglect.\3\
    Children whose parents abuse drugs and alcohol are almost 3 times 
likelier to be abused and more than 4 times likelier to be neglected 
than children of parents who are not substance abusers.\4\
    Children exposed prenatally to illicit drugs are 2 to 3 times 
likelier to be abused or neglected.
    We, the children of drug addicted parents, need your help. We need 
your support and commitment to our safety.
Invest in Prevention
    Prevention should be our top priority. My life changed when I 
became a part of a community-based organization called Drug Use Is Life 
Abuse in southern California. Knowing that I had something positive to 
contribute, something positive to give back, was so important to me. 
This community coalition provided support, mentorship and care at the 
time I needed it most.
    Children of addicts are at great risk of becoming addicts 
themselves. Prevention is the most effective way of stopping the cycle 
of substance abuse.
Make Treatment Available for Those Who Need It
    As I have recently learned in trying to find treatment for my 
father, there is little available. Treatment is effective. It is 
necessary. There is not enough available for those who need it. 
Treatment gives families the opportunity to reunite, and a new chance 
at life. I ask you to provide.
Protect Children
    8.3 million children live with at least one parent who is either 
alcoholic or in need of treatment.\5\ So much good can come from 
providing support for those like me. I ask you to provide support and 
care for abused and neglected children and increase the investment and 
advance policies on behalf of drug endangered children.
Increase Awareness
    One of the most dangerous aspects of today's heroin epidemic is its 
myth of safety. My peers falsely believe that smoking heroin is safer 
than shooting up. They are mistaken. I strongly believe that attention 
should be focused on this issue to make young people aware of the 
consequences of heroin use.
    Mr. Chairman, I thank you for your leadership on this issue. I look 
forward to any questions you or other Members of the Caucus may have.

                               Footnotes

    \1\ No Safe Haven: Children of Substance-Abusing Parents, The 
National Center on Addiction and Substance Abuse at Columbia 
University, 1998.
    \2\ Ibid.
    \3\ Blending Perspective and Building Common Ground: A Report to 
Congress on Substance Abuse and Child Protection, U.S. Department of 
Health and Human Services, April 1999.
    \4\ Ibid.
    \5\ Huang, L. Cerbone, F., & Gfroerer, J. (1998). Children at risk 
because of parental substance abuse. In Substance Abuse and Mental 
Health Administration, Office of Applied Studies, Analyses of Substance 
Abuse and Treatment Need Issues (Analytic Series A-7). Rockville, MD: 
U.S. Department of Health and Human Services, Substance Abuse and 
Mental Health Services Administration. Based on the 1996 National 
Household Survey on Drug Abuse.

    Senator Grassley. Thank you very much. You obviously make 
very real the problems beyond just the addict and the impact on 
everybody else. I think your strong statement is that there 
isn't such a thing as a victimless crime when it comes to 
drugs.
    I am going to start with you, Mrs. Allen. Where and at what 
age did your daughter first begin to use heroin?
    Mrs. Allen. It was probably, I would say, like 17\1/2\, 
maybe, almost 18.
    Senator Grassley. Did you see any warning signs that made 
you suspect she was using it?
    Mrs. Allen. No, I didn't.
    Senator Grassley. When you did find out, what steps did you 
take in the initial finding?
    Mrs. Allen. At first, we called a therapist that my doctor 
had recommended, a family therapist to help us and to give us 
guidance on what to do. We ended up doing tough love. We just 
told Erin she couldn't live with us as long as she was using, 
but we saw her everyday and made sure she ate and had clothing. 
So it was tough love, basically, is what we did.
    Senator Grassley. What advice do you have for other 
parents?
    Mrs. Allen. Other parents that have children addicted?
    Senator Grassley. Well, no. Let's start out before that. 
Advice for parents maybe to not get to that point, including 
once addicted.
    Mrs. Allen. Well, I know you have to look for the warning 
signs, but I mean we had known warning signs because of her 
alcohol addiction and I still didn't pick up on it. I mean, 
Erin hid it really well. It was by accident that I found out 
Erin was addicted to heroin.
    I think education is important, and parents need to be 
educated because when I heard the word ``heroin'' I had no idea 
what kind of hell we were going to go through. ``Heroin'' was 
like a foreign word to me. Erin knew everything about drugs. 
She had been in rehab so many times that she could probably 
recite the encyclopedia of drugs and tell you what everything 
did to you. So I don't even know why she ever tried it the 
first time, whether it was because she was at a low point. She 
was starting college, she was nervous. She was afraid she 
wasn't going to do good.
    I don't know why she started, but I think we need to 
educate the parents as much as the kids. Like I said, I didn't 
know anything about heroin. I didn't know that teenagers were 
using it until after Erin died. I thought Erin was the only kid 
in Delaware that was using heroin.
    Senator Grassley. I hear from young people in my State not 
only educating parents about drugs, but educating parents about 
parenting. I also hear young people in my State kind of wishing 
for greater rules and boundaries and parameters and less leeway 
from parents. I don't know whether that is true of kids in 
every part of the country, but that is what I am hearing from 
some kids in my State.
    Mrs. Allen. Well, I don't know. I was a good parent.
    Senator Grassley. Ms. Hulsey, obviously, one of the 
questions I was going to ask is the extent to which it has 
spread throughout your family, and you made that pretty clear 
that it involved a large number of people.
    On another point, what lengths did your parents go to to 
hide their addiction? I get the feeling that they didn't go to 
any lengths. They were very open with their addiction, right?
    Ms. Hulsey. I don't know much about my father, but when my 
mother was a teenager, she started at about 13 with alcohol, 
marijuana, LSD. She hid it pretty well. She finally got caught 
when she was a junior, when my grandmother discovered she 
hadn't been at school for six months. But she did a pretty good 
job even then of hiding it.
    And then once she was sort of in this sub-culture of heroin 
addicts, there wasn't much hiding that went on. I think they 
were beyond the point of even really caring what people 
thought.
    Senator Grassley. You answered for your mom. What about 
your dad? Did he ever tell you when he first started using it?
    Ms. Hulsey. At 15 or 16.
    Senator Grassley. Senator Biden.
    Senator Biden. Mrs. Allen, you were and you are a good 
parent. One of the things that I tried in the last panel to get 
across here is that, speaking with as many people as I could 
over the years and as many experts as I could, there are all 
kinds of reasons why children use drugs.
    Ms. Hulsey, I have tried to figure this out, and there are 
all kinds of speculation as we move into this new era of--we 
just went through an information age and the revolution it has 
caused--we are now going through a biotechnical age that is 
going to, I think, make the information age look like it moved 
slowly. It is going to raise all kinds of ethical questions and 
all kinds of inflated promises. I don't know how anyone can 
look at your family and not think there may be some genetic 
connection with all of this. I am not a scientist, and we are 
getting closer as the human genome is being mapped.
    Mrs. Allen, I know some parents who have been totally 
irresponsible with their children and their kids turn out just 
fine. I know other parents who have been incredibly attentive 
to their children and their children have become addicted. So 
you are not here for us to judge you. I have already judged you 
and you are one hell of a lady.
    Mrs. Allen. Thank you.
    Senator Biden. One of the things that confuses me, though, 
in knowing the right thing to do from a policy standpoint, is 
how do you catch as many children in the net before they get 
into this addiction. One of the things I am going to ask the 
next witness, who is a full-blown, genuine medical expert, is 
how often does a kid just for the first time snort heroin, 
first time ever, just the first drug they use.
    Your daughter could have easily chosen cocaine at that AA 
meeting, could have easily chosen whatever the drug was offered 
by her fellow compatriot that may or may not have attracted her 
interest. You point out that Erin knew the dangers of heroin. 
My experience with addicts has been after a couple of times in 
rehab, they can become sophisticated--you think you are talking 
to a doctor. If you are uninformed, as I am, they can spin a 
web that makes you think that they have a Ph.D. in 
pharmacology, and you know it and I know it. So it is really 
hard.
    Let me ask you a question. What do you hope to accomplish 
by all the work you are doing now? Who do you think it is most 
directed at, what you are doing? Part of it, I know, is a 
catharsis, but what do you hope to accomplish? If the Lord 
Almighty came down and sat right there and said, okay, Mrs. 
Allen, whatever you are wishing for, what do you think most 
likely is the best thing that can happen from these 800 
different meetings you have had?
    Mrs. Allen. That we can hopefully stop the demand for drugs 
from kids. I mean, if they are educated, they see what is going 
to happen to them if they start using drugs. They see a real 
story of real people.
    Senator Biden. Do you talk about alcohol with these 
parents?
    Mrs. Allen. What you heard today was a condensed version of 
basically what I do everyday.
    Senator Biden. For example, when it is all over, Mrs. 
Allen, do people walk up to you and say, Mrs. Allen--by the 
way, the pictures of your daughter, the before and after 
pictures--she was a beautiful young girl when she was off of 
heroin and a beautiful young woman when she was on heroin. I 
don't even know why you put the picture in. In other words, you 
look at that picture and she could be a movie star in the 
second one. She looks like she has just developed and she has a 
thinner face. That is not the look of anybody who would think 
of a heroin addict.
    Mrs. Allen. I think it looks bad.
    Senator Biden. I know you do, but you take that and show it 
to most people and they are going to look and say, I wish I had 
a daughter that lovely.
    What I am trying to get at is, in your mind, you think of 
this as a mom. You did everything you possibly could to protect 
your daughter. When did she start using alcohol?
    Mrs. Allen. Approximately 15.
    Senator Biden. And when did you start to realize she was--
--
    Mrs. Allen. She was also using other drugs, also, like I 
think she tried about everything, but alcohol was--she got 
addicted very quickly.
    Senator Biden. How far into this experience of 
experimenting with drugs and alcohol did she get, if you 
learned after the fact, before you figured out that----
    Mrs. Allen. It wasn't very long, it wasn't very long at 
all, five months, maybe four months.
    Senator Biden. And what did you do when you figured it out 
that she was out there experimenting with drugs?
    Mrs. Allen. Well, actually, what happened was she had tried 
to commit suicide on her way to school one day. She took some 
pills. So it was basically in the hospital that we found out 
that she had a drinking problem, and she was also diagnosed as 
manic depressive. So she was basically being treated in a 
psychiatric hospital first.
    Senator Biden. Well, that, as our next witness will tell 
us, is not an unusual thing either. A lot of alcoholics are 
dealing with double problems. They are what used to be called 
manic depressives. Some call it bipolar now, bipolar 1 and 
bipolar 2.
    Mrs. Allen. Erin was bipolar.
    Senator Biden. That exponentially increases the degree of 
difficulty.
    I guess what I am trying to get at is that there are those 
circumstances where a child, for reasons either within or 
beyond the control of a parent or someone who loves them 
dearly, has a multitude of problems, in that they are manic 
depressive. You did not make her manic depressive. You did not 
make her bipolar by your conduct, by your lack of attention or 
anything else, or the extent of your attention.
    And then there is a separate group of children out there 
that most parents, I think, think their kids are in, the group 
that they think they are in. They think they are in the group 
of kids who don't have any--and they may very well, but they 
don't have any serious psychological problems, they don't have 
any psychiatric problems, they don't have any behavioral 
problems, they don't have any personality defects. They are 
normal kids who, at a party, are introduced to a drug that 
addicts them, that hooks them. They show up at a party and they 
are like normal kids, and it is a rite of passage.
    One of the things I am having the greatest difficulty doing 
is distinguished, Mr. Chairman, between and among the types of 
young people that get addicted. There seems not to be any 
particular brand. You have the young kid who is the great 
athlete who has never had any problem, and no one knows of any 
problem, and all of a sudden they are trying drugs. They seem 
to come from a seemingly healthy family.
    Somehow, we have got to get behind this, behind the 
problem, behind the causes here, because we deal a lot with the 
symptoms. I think one of the reasons why the public is a little 
bit--I won't say a little bit, I think a lot--resistant to 
funding treatment programs is they in their personal 
experiences know somebody. They know the next-door neighbor, 
whom they think was raised as a good kid. I mean, they know 
him, they see him. Or they think the next-door neighbor was a 
bad kid, or poor parenting or good parenting.
    They look out there, and every one of us knows somebody, 
whether we are multi-millionaires or we are having difficulty 
making it day-to-day financially. Everybody knows somebody who 
has a child that has tried or has become addicted to or has 
passed through alcohol or drug use somewhere along the line.
    Here is what I am trying to get to. Dr. Leghner at the 
National Institute on Drug Abuse said that kids do drugs for 
two reasons: one, to feel good, and the second, to feel better. 
Those are the two reasons they do drugs.
    And I guess what I wanted to do if we had more time was to 
ask you, did you notice when Erin was 5 years old or 7 years 
old or 9 years old that she had difficulty intermingling with 
her class, having problems with withdrawal? I don't mean drug 
use.
    Mrs. Allen. No, not at all. Erin was very outgoing.
    Senator Biden. So at age 15 or 16, this episodic use just 
came along. She started using, experimenting with drugs and 
alcohol. Alcohol seemed to grab her.
    Mrs. Allen. Well, when she hit puberty, I guess it was kind 
of like her moods started getting weird, and I just thought it 
was adolescence, you know, growing up.
    Senator Biden. I think that is the hardest thing for 
parents to distinguish among their daughters, in particular, 
what is the reason.
    Mrs. Allen. Right. I lost my train of thought.
    Senator Biden. Well, I got you off on this. I just want you 
to know that I think what you are doing is something just 
slightly short of heroic, the way you do this. It is obvious, 
your love and your devotion. It is obvious you would have given 
your life for your daughter to be cured, and I just think it is 
incredible that you are able to do this.
    Would you like to introduce the people you have with you 
today that came down?
    Mrs. Allen. Sure. Right in back of me is Lieutenant Karl 
Hitchins, with the New Castle County Paramedics. That is my 
husband in the middle, Jerry. Officer Romy Duning, with the New 
Castle County Police. They do the Heroin Alert program. And I 
have to add that New Castle County do this program for free to 
anyone that wants it, and I think that is admirable. I mean, 
they are not being funded by anybody and I just think that is--
--
    Senator Biden. They are an incredible outfit. I can attest 
to it.
    Mr. Allen, thank you for being here. I know it is equally 
as hard for you.
    A concluding comment, Mrs. Allen. Had there been a Phoenix 
House-like program where your daughter was able to be--not like 
the Crest program, which is as good as we have, but where there 
is a program where she would be in treatment for a year a more, 
do you think that would have made a difference?
    Mrs. Allen. Yes, I do, with her heroin addiction. I think 
one problem with the Crest program was it was designed for men. 
We also need more treatment facilities that address women's 
problems.
    Senator Biden. Thank you very much.
    Thank you, Mr. Chairman. I have no further questions.
    Senator Grassley. Mrs. Allen, we have got an alert staff 
here that indicated that maybe my last remark to you was an 
implication of you not being a good parent. Let me suggest to 
you that I have held about 30 meetings around my State and I 
was in situations where young people who had been drug addicts 
themselves wanted to come in and talk to other young people 
about the drug problem in the schools in a fairly rural area of 
my State.
    The school administrators didn't want them to do it because 
they didn't want to admit that there was a drug problem. And he 
was crying to have those forums to tell other people. And then 
at other town meetings, I had young people tell me about they 
really were wishing--or I guess what they were expressing is 
that their parents gave them too much freedom, not enough 
rules, things of that nature.
    Mrs. Allen. I didn't take it that way.
    Senator Grassley. Okay.
    Mrs. Allen. I couldn't think of what to say to other 
parents about what to do because obviously I didn't do 
everything right.
    Senator Grassley. Sure. Well, we thank you very much.
    I am going to call the last panel at this point. Before I 
do call the last panel, if I could recognize in the audience 
that we have Dr. Dean Borden here from Plano, Texas. His son, 
Mark, who is with him today was addicted to heroin and had been 
in recovery and clean for over two years. I would like to thank 
them for coming to today's hearing.
    Now, I call our final panelist, Dr. Charles O'Brien, of the 
University of Pennsylvania. Dr. O'Brien has had a long career 
in substance abuse treatment and is currently the Director of 
the University of Pennsylvania Center for Studies of Addiction. 
His research group has been responsible for numerous 
discoveries that have improved the results of treatment for 
addictive disorders.
    Thank you, Dr. O'Brien, and would you proceed?

   STATEMENT OF CHARLES O'BRIEN, M.D., DIRECTOR, CENTER FOR 
STUDIES OF ADDICTION, UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, 
                               PA

    Dr. O'Brien. Thank you, Mr. Chairman, Senator Grassley, and 
Senator Biden, as well, for inviting me today to testify. I 
would also like to applaud the last two witnesses and the young 
people who were here to talk to us in such a personal way about 
the tragedies of heroin abuse and addiction.
    We are here to discuss the growing heroin addiction problem 
that is resulting from high purity levels. We also need to 
recognize that heroin addiction is chronic, relapsing brain 
disease for many people. To address this growing problem, we 
need to increase treatment options and allow qualified 
physicians to diagnose and treat opiate addiction in an office-
based setting.
    As background, our clinical program at the Philadelphia 
Veterans Affairs Medical Center treats about 10,000 veterans 
each year with mental disorders. About a fourth of these 
patients have primary substance use disorders, and another 
third have combined substance use with mental disorders, as 
Senator Biden alluded to a little while ago.
    So we have a very large treatment program, and we also have 
a research center that is both at the VA and at the University 
of Pennsylvania, and it includes a network of 15 non-VA 
programs throughout Pennsylvania, Delaware and New Jersey, 
including several programs that specialize in the treatment of 
adolescent drug abusers. We also do a lot of teaching of 
medical students, residents, interns and fellows, and we host a 
national training program for minority medical students in the 
treatment of substance use disorders.
    You have mentioned some of our research, so I will skip 
over that, but I should mention that our research deals with 
the four main addicting drugs: nicotine, alcohol, heroin, and 
cocaine. While addiction to the two legal drugs, nicotine and 
alcohol, actually are responsible for many more deaths and 
economic loss than heroin and cocaine, my remarks today will 
emphasize the current facts concerning the new problem caused 
by the unprecedented availability of very potent heroin.
    Before beginning to speak about heroin, however, I know you 
don't get much good news, so I would like to give you some good 
news regarding cocaine abuse. Now, we haven't solved the 
cocaine problem, far from it, but new cases of cocaine abuse 
and dependence have fallen off very dramatically in New York 
City and to some extent in other places.
    Crack cocaine dealers have been quoted as saying that they 
can no longer make a living selling this drug. Cocaine in both 
crack and powdered forms is still widely available and cheap in 
our area, but fewer new users seem to be buying it. This 
development is not surprising, since previous stimulant 
epidemics have been self-terminated in the past, both in this 
country and abroad.
    We would like to give credit to drug prevention programs, 
and we do give credit, but there are also other important 
factors. We believe that decline of new users is related to the 
fact that cocaine produces destruction of lives fairly quickly, 
and thus prospective new users can see the deterioration in 
their older friends and relatives and decide not to begin using 
this drug. They don't have to hear it on TV, or they don't 
believe what adults tell them, but they see with their own 
eyes.
    Heroin, in contrast, is actually less toxic. It simply 
mimics the effects of normal hormones that we all have and 
produces social destruction more gradually in most cases. We 
have heard some fairly rapid destruction here, but in most 
cases it is more gradual. Although heroin can cause death by 
overdose, the medical consequences of heroin use are mainly 
indirect, based on infections such as AIDS and hepatitis.
    While there is good news to report about the availability 
of new and more effective treatments for heroin addiction, 
there is also much grim news to report. As you mentioned 
earlier, heroin purity is up all over the country, and in my 
town of Philadelphia it has the sad distinction of having the 
most potent heroin in the country, according to DEA figures.
    When we founded our treatment program in 1971, and 
continuing until the 1990s, the average purity of a bag of 
heroin was 4 percent. Lately, it has increased to as much as 85 
percent, with most bags falling in the 70-percent range. In 
other parts of the East, the figures are only slightly lower. 
The heroin per milligram is therefore cheaper than ever in 
modern history.
    This increased purity is reflected in overdoses and in high 
levels of physical dependence observed in patients who come to 
us seeking treatment. Moreover, we are seeing increasing 
numbers of young people starting on heroin as smokers or 
snorters, but it is so potent that they are able to get these 
effects by smoking it or absorbing it through the membranes of 
their nose rather than being obliged to inject it.
    This is exactly what I heard from my military patients when 
I was a U.S. Navy physician during the Vietnam War. Our current 
heroin purity and use patterns are similar to the tragic 
situation in Vietnam. Unfortunately, studies show that 15 
percent of the snorters and smokers progress to injection in 
the first year of use. So they don't staysnorting forever in 
most cases, and within one year they are already injecting it.
    More middle-class and suburban youth are being introduced 
to heroin, and in the Philadelphia needle exchange program that 
we have been studying, which incidentally has been effective in 
reducing the spread of infections related to IV drug use, we 
were shocked on the first day that we started studying this 
program that a group of students from our own university came 
to get needles for their heroin injections. So we even have 
university students involved in this.
    While our first goal in the treatment of heroin addiction 
is complete abstinence, we know that this is not realistic for 
the great majority of patients. Even those who do well 
initially in a drug-free residential program have a high 
frequency of relapse when they return to the neighborhood where 
drugs are available.
    Methadone treatment invented in the 1960s has a proven 
record of success for the majority of heroin addicts. It is 
unfortunate that some politicians are calling for a reduction 
in methadone therapy, while most metropolitan areas have long 
waiting lists for methadone treatment. Less than 200,000 of an 
estimated 800,000 heroin addicts are receiving treatment.
    In spite of the increased purity of heroin on the streets, 
treatment resources are inadequate and options are limited. 
They should be expanded, not reduced. Methadone is not even 
available in eight States. Fortunately, we have a very 
effective spokesperson in General Barry McCaffrey, who has 
eloquently made the case for more methadone availability and 
for additional treatment options for heroin addicts.
    Methadone has saved the lives of many heroin addicts, but 
because of public misunderstandings, it has a controversial 
reputation. Several years ago, in response to an invitation 
from Congressman Porter to speak on the progress in addiction 
research, I brought with me a young woman who has been 
maintained on methadone for many years. She is now a practicing 
attorney and a mother, but she continues to require methadone. 
Her testimony to the committee discussing the NIH budget was 
eloquent and she responded to questions beautifully. But most 
of the committee were incredulous; they couldn't really believe 
that she was on methadone because she looked so normal.
    In addition to methadone, we have other treatment options 
for the treatment of heroin addiction. LAAM is a medication 
approved by the FDA about five years ago, but it is little used 
in treatment because of many restrictions. It is an excellent 
medication that for some people is even better than methadone, 
and its duration of action is so long that it need be taken 
only two or three times per week. It should be much more widely 
available, and it is a weakness of our overly restrictive 
treatment system that more patients don't have the opportunity 
to receive this medication.
    We also have a blocking agent called naltrexone which 
antagonizes heroin, and it is the treatment of choice for the 
majority of physicians and nurses who are addicted to opiates. 
It has also been found to be extremely effective for prisoners 
released from prison after heroin-related crimes and are on 
probation. They can be treated with this medication and it 
reduces the prospects of relapse.
    Yet another new medication that is being successfully used 
in France and is currently being reviewed by the FDA for use in 
the United States is buprenorphine. Its chemical category is 
somewhat different from methadone, in that it is a partial 
agonist at opiate receptors. This medication has been found to 
be as effective as methadone, and in some cases even better. It 
seems to be particularly effective for adolescents with a 
heroin problem.
    Buprenorphine is very unlikely to produce overdose, and in 
France the death rate due to opiate overdose has been reduced 
by 75 percent since they introduced buprenorphine. Not only 
does it not produce overdose itself, but it may even provide a 
measure of protection against heroin overdose.
    The safety and efficacy of buprenorphine is such that it 
should be made available to all physicians to treat patients 
with opiate problems in their offices. This would be a major 
benefit to patients who are unable or unwilling to come to 
specialized methadone programs. It would be available not just 
to heroin addicts, but to anyone with an opiate problem, 
including many citizens--and we don't know how many of them 
there are, but there are thousands of them out there who would 
not ordinarily be associated with the term ``addiction.'' They 
have chronic pain problems, they have lost control of their 
medication, and the availability of buprenorphine would enable 
physicians to control the opiate abuse problems of these 
Americans who are now being inadequately treated or not at all.
    One important development is the combination of 
buprenorphine with naloxone, a full antagonist. If the 
combination is taken by mouth, this new medication is effective 
in reducing drug craving and stabilizing the person to lead a 
normal life. If someone tries to abuse it by injecting it, the 
naloxone component would then be effective in blocking the 
effects and preventing a high or euphoria. Thus, the diversion 
potential of this new medication would be minimized.
    Several treatment programs have already 
studiedbuprenorphine in the treatment of adolescent heroin abusers. It 
has been found to detoxify--that is, treat withdrawal symptoms while 
the body cleanses itself of heroin--more effectively than other 
medications. Thus, a greater proportion of young people would be able 
to get off heroin and receive counseling and other forms of 
rehabilitation.
    Buprenorphine is also very effective as a longer-term 
medication that a young person can take daily, return to school 
or job training, and after six months or more maintain a stable 
drug-free state. As Dr. Rosenthal and the others said, it is 
not a short-term problem, heroin addition. Twenty-eight days is 
nothing in the course of this illness. Once this medication is 
approved by the FDA and is allowed to be used in physicians' 
offices, it could dramatically improve the treatment of heroin 
addiction in the United States.
    The current heroin treatment situation is ironic. Through 
research, we have developed more effective treatments than ever 
before. We have the medicines I just described. We have strong 
evidence for the effectiveness of counseling and psychotherapy. 
Combined with medications, they can produce impressive 
rehabilitation of heroin users. But we have an inadequate 
number of treatment slots and inadequate funding of slots that 
do exist. Medication has only minimal benefits alone, compared 
to the much greater benefits of the combination of medication 
and psychotherapy.
    In summary, Mr. Chairman, we are in the midst of the 
highest availability of relatively pure heroin in our recorded 
history. Fortunately, we have effective treatments, including 
new medications, that are coming on line. One of them, 
buprenorphine, is well advanced in the FDA approval process and 
is being considered for use in a new approach to opiate 
addiction. This new approach, in keeping with the scientific 
data, would allow physicians to treat heroin addiction in their 
offices, just as we treat any other medical problem.
    Mr. Chairman, thank you again for inviting me to testify 
here today. The issue of teen heroin abuse is a national 
problem. I hope that my testimony will help you and your 
colleagues to move forward to implement the next phase of our 
Nation's war on drugs, ensuring that all of our heroin addicts 
have access to these effective treatments.
    Senator Grassley. Along the lines of further research, the 
bill that I have talked about today does have a component in it 
that will encourage more and better research and give resources 
along that line.
    And another question I had, and it just came to my mind, is 
you were going through the list of treatments. The treatments 
you gave are for heroin and not for any other drug addiction 
problems, right?
    Dr. O'Brien. That is correct. They are specifically for 
heroin, although, of course, many of these patients have 
combinations with other drugs.
    Senator Grassley. Yes. I just have two or three questions, 
and you don't have to go into a lot of detail because I am 
looking for some trends. One would be the types of trends in 
usage that you have seen over the years, let's say maybe within 
the last 10 years, of heroin use.
    Dr. O'Brien. Well, let me just add something to my previous 
answer, too, because, of course, heroin is what these drugs 
were developed for, but any drug in that category, any opiate. 
So there are really many, many people out there who are 
addicted to opiates other than heroin who would be helped by 
these medications.
    But the trends that we have seen, Mr. Chairman, are related 
to the high potency. So people who would never think of 
themselves as injection drug users can be induced to smoke it 
or snort it, and then later find that they need more and more 
because tolerance builds up and then they find themselves 
injecting it, even though they had made a resolution that they 
would never inject it. So we see people much as we saw in 
Vietnam starting off with smoking and snorting and then 
progressing to needles, whereas in the old days you had to use 
heroin by needle because it was so weak.
    Senator Grassley. What trends in age ranges and demographic 
trends have you seen?
    Dr. O'Brien. Well, there have been dramatic changes in 
that. At one time, heroin was a drug purely of the minority 
population in ghettos in inner cities, and now it is clearly in 
the suburbs. You heard from suburban adolescents just now. And 
we see it in younger and younger people. I am very struck by 
the national polls and questionnaires that show that not just 
high school seniors are being exposed to heroin, but kids in 
the 6th, 7th and 8th grade are getting exposed to it. So it is 
getting to a younger group.
    We mentioned that addiction is a brain disease. If you 
learn to play tennis or ride a bike at a younger age, it is 
fixed in your brain and it stays with you the rest of your 
life. Addiction is very much like that. It is a bad habit that 
changes the brain, and the younger you learn it, the harder it 
is to stop, and that includes smoking cigarettes. So these 
younger children are developing more difficult addictions to 
treat.
    Senator Grassley. What is the current state of research in 
the addiction field?
    Dr. O'Brien. Well, it is a field that has made dramatic 
advances mainly in understanding the brain. It turns out that 
the study of addicting drugs has helped to advance our 
understanding of memory, not just addiction butother kinds of 
memory and other forms of physiology of the brain.
    We have just finished the Decade of the Brain. Probably, we 
are entering the Century of the Brain because this is the most 
complicated organ, and the study of addicting drugs has helped 
us to understand more about the brain. We have also developed a 
lot of new treatments. When I got into this field 25 or 30 
years ago, we had far fewer treatment options. Now, we have a 
whole range of treatments and we are much more effective at 
helping people to stay off of drugs.
    Senator Grassley. Thank you.
    Senator Biden.
    Senator Biden. Doctor, I am struck by the similarity in the 
pattern--I realize one is an opiate and the other is a 
stimulant--cocaine and heroin, different effects on the brain. 
This is like that overused quote of Yogi Berra, ``deja vu all 
over again''
    I conducted hours and hours and hours of hearings in the 
1980s about crack cocaine, and the similarities in terms of the 
way it is spread through the community, the nature of its 
impact, lowering the average age from which you start to use 
the drug from 18 at one point down to 14. There were 176,000 
cocaine addicts under the age of 14 in New York in 1985--I 
mean, the similarities in terms of the social pathology, if 
there is such a phrase, just scare the living devil out of me. 
So here you have younger and younger people starting at younger 
and younger ages.
    I have sought your help in the past. We went through the 
period when we were delivering 300,000 crack-addicted babies a 
year. And, again, we had this awful struggle about what we 
should do and what public policy should be. Back then--and I am 
going to say something that will probably sound self-serving, 
and I don't mean it this way--I was arguing that we should be 
looking at buprenorphine 11 years ago.
    I listed about 10 years ago, if I am not mistaken, the 10 
most promising pharmacological approaches that were out there, 
which won't solve the drug problem because it is a holistic 
requirement that needs to be--there is no silver bullet and you 
take a pill. And it amazes me that every poll you read in the 
United States, every new book about the American psyche and the 
American culture, everything you read says that the one 
defining feature of an American is their almost inordinate 
faith in technology and research. We believe as Americans that 
you can find an answer to anything. If you just unleash the 
right scientists, the right group of technicians, we can solve 
it.
    Yet, I have had the greatest difficulty in dealing in this 
subject since 1979 of convincing people that if we invested 
money, significant amounts of money--the Orphan Drug Act, 
making it more attractive, giving rewards to drug companies--I 
have gone and spoken to every major drug company, to their 
CEOs, and said, why aren't you guys involved in this more?
    And they say, well, it is promising, but we spend millions 
of dollars doing blind studies and we find an answer. What do 
we have, 800,000 customers who don't want to buy anyway? How do 
we get a return on our investment from doing this?
    Yet, it amazes me that with the work you are doing and the 
kinds of results--and I am going to ask you over time to maybe 
for the record give us some of the details of what you have. 
But the combination of buprenorphine and--was it naltrexone or 
naloxone you said?
    Dr. O'Brien. For the buprenorphine it is naloxone. 
Naltrexone is for different purposes.
    Senator Biden. And the overwhelming resistance we get to 
speed the process up.
    So here is my question, with that background. What are you 
finding out in the community in which you are one of the 
leaders, you and your associates around the country, around the 
world for that matter--what are you finding out about why 
people try drugs in the first place? I mean, is there any data 
to sustain any different point of view? Should we as 
policymakers be looking at what we do with kids when they are 
3, 4, and 5 and how they are raised so they don't become the 
candidates when they are 12, 13, 14?
    Is it like sex, in the sense that if you have unprotected 
sex and you are young, you become a mother? I mean, it is an 
accident. It is not an addiction. You just make a mistake and 
you end up--I mean, try to talk to me about it a little bit.
    Dr. O'Brien. Well, Senator, actually you hit on some of it 
yourself already when I heard you speaking earlier about the 
genetic component. There are multiple components to any 
illness, and the way we teach it to medical students is that a 
good example is an infectious disease. If all of us in this 
room were exposed to tuberculosis, some of us would get the 
disease, some of us would get a limited form of it, and some of 
us wouldn't get it at all. We have different resistance.
    Actually, we describe it in medicine as agent, host, and 
environment. The agent is the bacteria, or in this case the 
drug. The host is the person. There are all sorts of genetic 
factors that influence a person's vulnerability to becoming 
addicted to nicotine or to alcohol or to heroin or cocaine. We 
know some of them for alcohol because it has had the most 
genetic studies. And then we have all the environmental 
factors--the family, the peers, thepossibility of other 
pleasures in life, and these are interactions.
    It turns out that the figures may be somewhat surprising if 
you haven't looked at them recently, but of everyone who tries 
nicotine, 32 percent become addicted. Twenty-three percent of 
those who try heroin become addicted.
    Senator Biden. I am sorry?
    Dr. O'Brien. About 23 percent.
    Senator Biden. Twenty-three percent.
    Dr. O'Brien. So that of 100 people, and this includes all 
ages from the best data that we have on this, it is around 20 
to 23 percent who actually become dependent on heroin. For 
cocaine, it is around 16 or 17 percent. For alcohol, it is 
lower than that, actually. You know, it is a combination of the 
amount of exposure.
    For example, if these were legal drugs, that is why I think 
nicotine is higher because making them legal means that people 
get more exposure. Some people hate their first exposure to any 
of these drugs and they never go to it again, and other people 
had so much environmental pressure to try it that even though 
they get sick the first time they use it, they keep trying it 
and trying it.
    A good example of this is with alcohol. Some people of 
Asian descent have a gene that gives them inadequate metabolism 
of alcohol, so they get tremendous flushing when they drink. 
But sometimes, there is so much pressure on them to drink in a 
social situation that they do drink anyway and they can become 
alcoholic in spite of this reaction. Of course, the frequency 
of people with this gene becoming alcoholic is much lower than 
it is for those without the gene.
    Senator Biden. I wish we had the time to spend. Literally, 
I think we would be served well--and I don't know that we are 
the vehicle, this committee--I think we would be served well if 
we had literally several weeks, several months, of intense 
hearings on this that would be covered and bring people like 
yourself in here, because there is a reflection of social 
policy here, with the exception of nicotine, in terms of 
whether or not it is a good bet societally to put most pressure 
on which drugs.
    For example, if you can sit there and say, all right, we 
can focus on only a single drug, and you look at numbers--and I 
realize this is a vast oversimplification--that 23 out of 100 
people who try heroin get hooked on it, and 16 out of 100 who 
try cocaine. Then you have to figure out how availability it 
is. But assume everything else is constant, the availability is 
the same and you can only pick on one, you would figure, well, 
you had better go after heroin because you have a greater pool 
of people more likely to become addicted. We don't approach it 
that way. We don't think of it in those kinds of terms.
    I will ask a concluding question because I know I am 
trespassing on your time and the committee's. You not only came 
here on time to testify, but you have sat here the whole 
morning, which is a mark of the kind of person you are, I mean 
how serious you are about not only your responsibilities up at 
Penn, but how involved you are in trying to help.
    What I get asked by parents as I go around--and I have been 
sort of the guy carrying the banner in my State saying heroin 
is coming for the last I don't know how long. As the county 
police can tell you, I think I spoke to all of them about seven 
years ago, a whole group of police. We had talked about ice, 
and ice was making its way across from Hawaii and then working 
its way through the Midwest. And it ended up in methamphetamine 
in your State in a big way, and so on. There are trends to 
these things.
    But one of the things that I get asked, and I don't know 
how to answer it, is, Senator, are you telling me that the 
availability of heroin being so available, cheap and pure, that 
it might be a drug my kid might try first at a party in 9th 
grade or 10th grade? Or are you telling me, Senator, that I 
don't have much to worry about if I don't think my kid is 
already experimenting with alcohol and marijuana or speed or 
any other illegal substance?
    What is the answer to that question?
    Dr. O'Brien. Well, availability is one of the strongest 
determining factors, whether you are talking about a doctor 
with all sorts of drugs in his office or you are talking about 
a kid with all sorts of drugs in the schoolyard.
    Now, the first drug for the vast majority of them, as you 
heard here, is usually the most available drug when they are 
young--alcohol, nicotine. That is where we get the term 
``gateway'' drug. But we have seen a study of kids who were 
arrested in Manhattan who were on crack cocaine, and it turned 
out that crack was their gateway drug because it happened that 
at that time in the neighborhood where they grew up, crack was 
more available than cigarettes. So I think there is a certain 
random availability factor that influences this.
    Senator Biden. That is my concern. As you know, because we 
have talked so many times, I am not one who thinks that 
interdiction solves the problem, interdicting drugs coming into 
the United States. If I had to allocate the total amount of 
money we spend, the bulk would not be in interdiction; it would 
be on treatment and it would be on prevention.
    But, you know, I think here that, again, to make the point 
in a somewhat oversimplistic fashion, if I got to affect one 
thing, and only one thing, tomorrow about heroin at this 
moment, I would affect the cost and the price and availability. 
If I could do only one thing, I would shut down the Colombian 
connection and the amount of heroin that is coming in here 
because when you were going back to 3- and 4-percent pure 
heroin, you had no option but to stick it in your arm.
    And a kid in the past, if past is prologue, had to be 
pretty far down the road in other addictions to get to the 
point where they would take a needle and insert into a vein in 
their body. It wasn't something of first choice. But here you 
can have a kid who is at a party and maybe is accustomed to 
having been drinking for six months when they go on the 
weekends parties that their parents don't know about and have 
gotten loaded a couple of times. Here you have got a situation 
now where you have a kid who would no more think of heroin as a 
drug of first choice or even second choice. It is available, it 
is cheap. The hit is quick, and it is available.
    I say this to get a response. My emerging thought process 
here is that if I had my way, we should deal with this 
Colombian initiative to try to deal with the drugs. We should 
be significantly increasing our commitment to treatment and we 
should be putting out a clarion call in terms of education 
about the availability of heroin, as it relates to heroin 
specifically.
    Those three things seem to me, notwithstanding the advice 
of very professional staff--you know, my mom has an expression. 
She says, Joey, a little bit of knowledge is a dangerous thing. 
Well, I think I know as much as my staff. I think as much as 
all but the experts like you about this because I have been 
doing it too long, which is probably a dangerous thing.
    But it just seems as we go down the road here that the 
availability, as you point out, and the reason I ask you the 
question--the availability drives consumption, drives choice 
significantly. And the purity drives the method by which you 
are going to ingest this to have an effect.
    The fourth thing I would be trying to do is fundamentally 
increase our commitment to research and alternatives that are 
those things that, again, I am not arguing are a silver bullet 
to cure someone, but to be able to use them as regimes that 
allow you to do the more holistic treatment.
    What you said at the very outset was--and I wrote it down--
if I can find my notes, you said that cocaine addiction is a 
disease of the brain. I forget exactly how you phrased it, but 
it is something that is very difficult, very difficult to 
overcome, once addicted.
    So would you comment on what you would like to see? And I 
am not trying to get you to agree with me, I promise you. I am 
just giving you my impression. If you were in the position of 
the drug director, how would you focus on heroin, or what would 
be your priority, since you know you don't have the money to do 
everything?
    Dr. O'Brien. That is the problem, in practice, that you 
can't do everything. But, currently, we are still spending 
about two-thirds of the money in the war on drugs on the 
interdiction part, and so only about a third of it on the 
treatment and prevention part. Yet, we see that even when you 
have high availability of cocaine, you can have a reduction in 
cocaine use.
    Senator Biden. I am going to interrupt you. I remember 
years ago being told by a couple of your colleagues that there 
is--I forget the term they used, and I was asking my staff and 
she couldn't remember either. There is a break point at which 
the saturation of the consuming market is reached, assuming it 
is not legal. There is a break point.
    One of the reasons why it doesn't surprise me that--I mean, 
I had a very simplistic reason why I argued the last eight 
years that the Colombians were going to go into heroin. 
Everybody kept telling me, no, it is not going to happen. Well, 
it was real simple to me. There is so much cocaine, there has 
been such a saturation of the American consuming market with 
cocaine that they are going to look for a different product.
    I forget the phrase. What is that phrase? Only ``x'' 
percent of the population--the legalizers mainly argue it. They 
argue that if you legalize, there is no more than 12, 15, 19, 
20, whatever percent of the population that is in the consuming 
mode. Above that, it is not going to matter. You just saturate 
the market and they go to something different.
    Is that part of the reason why cocaine consumption is 
actually moving down, because it is more available now than it 
was? The availability still is high.
    Dr. O'Brien. That is right, but there is a negative 
perception out there now that people think of it as being 
dangerous. And if you look at the history of cocaine epidemics, 
such as the one in Japan, for example--and there have been 
others, and in this country as well--the stimulant drugs tend 
to be more toxic.
    Senator Grassley, I am sure, has heard stories in the 
Midwest of the methamphetamine epidemic. It is very similar to 
cocaine, except in some ways more pernicious because it has a 
longer duration of effect. And people can see the toxicity, and 
in a fairly short time after using it they can see their 
slightly older peers getting into trouble with it, whereas 
heroin is more insidious.
    The typical person that we have seen over the years--and it 
may be different now, but over the years it has been an average 
of about 10 years of using heroin on the street before they 
come in for treatment. And they are forced in, just as Dr. 
Rosenthal said. So there are different reasons why these 
epidemics come and go, but the opiate epidemic--you can trace 
it back to just post-Civil War time and the invention of 
hypodermic syringes, needles, and also all the patent medicines 
of those days.
    Senator Biden. Well, heroin came along as a cure.
    Dr. O'Brien. Exactly. Unfortunately, we had more opiate 
addicts in the early part of the 20th century than we do today 
proportionate to the total population, but it was a totally 
different demographic group. They were mainly dependent on 
patent medicines and relatively few were using injection. But 
that is where the Harrison Narcotics Act came from because of 
the concern about all of those people dependent on opiates in 
those days.
    So it has been a fairly constant thing, until this greatly 
increased period we have seen in the last few years, whereas 
stimulant epidemics tend to come up and down, and they more or 
less are self-limiting.
    Senator Biden. Thank you.
    Senator Grassley. Thank you very much, Dr. O'Brien. We 
appreciate your contribution and we will be calling on you 
again, and let us know if you have got any advice for us as 
well.
    Dr. O'Brien. Thank you.
    [The prepared statement of Dr. O'Brien follows:]

Charles O'Brien, MD, Ph.D.--Director of Behavioral Health, Philadelphia 
 VA Medical Center; Professor and Vice Chair of Psychiatry, University 
of Pennsylvania; Director, Center for Studies of Addiction, University 
of Pennsylvania/VAMC; Research Director, Philadelphia VA Mental Illness 
  Research, Education and Clinical Center (MIRECC)--Senate Caucus on 
                    International Narcotics Control

    I want to thank Mr. Chairman, Senator Grassley and Senator Biden 
for inviting me today to testify. And I also want to applaud the young 
people who are here today to talk to us in such a personal way about 
the negative impact heroin has had on their lives.
    We are today to discuss the growing heroin addiction problem that 
is resulting from high purity levels. We also need to recognize that 
heroin addiction is a chronic relapsing brain disease for many people. 
To address this growing problem, we need to increase treatment options 
and allow qualified physicians to diagnose and treat opiate addiction 
in an office-based setting.
    As background, our clinical program at the Philadelphia Veterans 
Affairs Medical Center treats about 10,000 veterans each year with 
mental disorders. About a fourth of these patients have primary 
substance use disorders, and another third have combined substance 
abuse with other mental disorders. The treatment program, one of the 
largest and oldest in the VA has received the Award of Excellence from 
VA Headquarters and is a National Center of Excellence for Substance 
Abuse Training. We are also the site of a VA Mental Illness Research, 
Education and Clinical Center (MIRECC) with a substance abuse theme, 
and a NIDA Research Center that includes a network of 15 non-VA 
programs throughout the Delaware Valley. We teach medical students, 
residents and fellows and we host a national training program for 
minority medical students in treatment of substance use disorders.
    In studies dating back to the early 1970s, our group has been 
credited with the development of several new treatments for addiction, 
new understanding of the brain mechanisms underlying addiction and for 
inventing the standard measuring instrument for measuring the severity 
of addiction used throughout the world. Our research deals with the 
four main addicting drugs: nicotine, alcohol, heroin and cocaine. While 
addiction to the two legal drugs, nicotine and alcohol, is responsible 
for many more deaths and economic loss than heroin and cocaine, my 
remarks today will emphasize the current facts concerning the new 
problems caused by the unprecedented availability of very potent 
heroin.
    Before beginning to speak about heroin, I must mention that there 
is good news to report regarding cocaine abuse. New cases of cocaine 
abuse and dependence have fallen off dramatically, particularly in New 
York City. Crack cocaine dealers have been quoted as saying that they 
can no longer make a living selling this drug. Cocaine in both crack 
and powered forms is still widely available and cheap in our area, but 
fewer people seem to be buying it. This development is not surprising 
since previous stimulant epidemics have been self-terminated in the 
past, both in this country and abroad. We would like to give credit to 
drug prevention programs, but there are also other important factors. 
We believe that decline of new users is related to the fact that 
cocaine produces destruction of lives fairly quickly and thus 
prospective new users see the deterioration in their older friends and 
relatives and decide not begin using the drug themselves. Heroin, in 
contrast, in less toxic. It simply mimics the effects of normal 
hormones that all of us have and produces social destruction more 
gradually. Although heroin can cause death by overdose, the medical 
consequences of heroin are mainly indirect based on infections such as 
AIDS and hepatitis.
    While there is good news to report about the availability of new 
and effective treatments for heroin addiction, there is also much grim 
news to report. Heroin purity is up all over the country and my home 
town of Philadelphia has the sad distinction of having the most potent 
heroin in the country according to DEA figures over the past several 
years. When we founded our treatment program in 1971 and continuing 
until the 1990s, the average purity of a bag of heroin was 4%. Lately 
is has increased to as much as 85% with most bags tested into the 70% 
range. In other parts of the East, the figures are only slightly lower. 
Thus heroin per milligram is cheaper than ever in modern history. This 
increased purity is reflected in overdoses and in high levels of 
physical dependence observed in patients who come to us seeking 
treatment. Moreover, we are seeing increasing numbers of young people 
staring on heroin as smokers or ``snorters,'' that is, taking heroin by 
placing the powder in their nostrils. Heroin today is so potent that 
they are able to get effects by smoking it or absorbing it through the 
membranes of their noses rather than being obliged to inject it. This 
exactly what I heard from my military patients as a U.S. Navy physician 
during the Vietnam War. Our current heroin purity and use patterns are 
similar to the tragic situation in Vietnam. Unfortunately, studies show 
that at least 15% of the ``snorters'' and smokers progress to injection 
in the first year. More middle class and suburban youths are being 
introduced to heroin. We have been studying the Philadelphia needle 
exchange program, which incidentally has shown efficacy in reducing the 
spread of infections, and we are shocked to find on the first day of 
the study a group of students from our own university who were coming 
to get needles for their heroin injections.
    While our first goal in the treatment of heroin addiction is 
complete abstinence, we know that this is not realistic for the great 
majority of patients. Even those who do well initially in a drug free 
residential program have a high frequency of relapse when they return 
to the neighborhood were drugs are available. Methadone treatment, 
invented in the 1960s, has a proven record of success for the majority 
of heroin addicts. It is unfortunate that some politicians are calling 
for a reduction in methadone therapy, while most metropolitan areas 
have long waiting lists for methadone treatment, and less than 200,000 
of an estimated 800,000 addicts are receiving treatment. In spite of 
the increased purity ofheroin on our streets, treatment resources are 
inadequate and options are limited. They should be expanded, not 
reduced. Methadone is not even available in eight states. Fortunately, 
we have a very effective spokesperson in General Barry McCaffery who 
has eloquently made the case for more methadone availability and for 
additional treatment options for heroin addicts.
    Methadone has saved the lives of many heroin addicts, but because 
of public misunderstanding, it has a controversial reputation. Several 
years ago in response to an invitation from Congressman Porter to speak 
on the progress in addiction research, I brought with me a young woman 
who has been maintained on methadone for many years. She is now a 
practicing attorney and a mother, but she continues to require 
methadone. Her testimony to the committee discussing the NIH budget was 
eloquent and she responded to questions beautifully. Most of the 
committee members were incredulous that she was really on methadone 
because she looked so ``normal.''
    In addition to methadone, we have other treatment options for the 
treatment of heroin addiction. LAAM is a medication approved by the FDA 
about five years ago, but it is little used in treatment. LAAM is an 
excellent medication that for some people is even better than methadone 
and its duration of action is so long that it need be taken only two or 
three times per week. It should be much more widely available and it is 
a weakness of our overly restrictive treatment system that more 
patients do not have the opportunity to received this medication.
    Another new medication that is being successfully used in France 
and is currently being reviewed by the FDA for use in the U.S. is 
buprenorphine. Its chemical category is somewhat different from 
methadone in that it is a partial agonist at opiate receptors. This 
medication has been found to be as effective as methadone and in some 
cases even better. It seems to be particularly effective for 
adolescents with a heroin problem. Buprenorphine is very unlikely to 
produce overdose and in France, the death rate due to opiate overdose 
has dropped by about 75%. Not only does it not produce overdose itself, 
but it may even provide a measure of protection against overdose by 
heroin.
    The safety and efficacy of buprenorphine is such that it should be 
made available to all physicians to treat patients with opiate problems 
in their offices. This would be a major benefit to patients who are 
unable or unwilling to come to specialized methadone programs. It would 
be available not just to heroin addicts, but to anyone with an opiate 
problem, including many citizens who would not ordinarily be associated 
with the term addiction. The availability of buprenorphine would enable 
physicians to control the opiate abuse problems of many Americans who 
are now being inadequately treated or not treated at all.
    One important development is the combination of buprenorphine with 
naloxone, a full antagonist. If the combination is taken by mouth, this 
new medication is effective in reducing drug craving and stabilizing 
the person to lead a normal life. If someone tries to abuse it by 
injecting it, the naloxone component would then be effective in 
blocking the effects and preventing a ``high'' or euphoria. Thus, the 
diversion potential of this new medication should be minimized.
    Several treatment programs have already studied buprenorphine in 
the treatment of adolescent heroin abusers. It has been found to 
detoxify, that is treat withdrawal symptoms, while the body cleanses 
itself of heroin, more effectively than other medications. Thus a 
greater proportion of young people are able to get off of heroin and 
receive counseling and other forms of rehabilitation. Buprenorphine is 
also very effective as a longer term medication that a young person can 
take daily, return to school or job training and after six months or 
more maintain a stable drug free state. Once this medication is 
approved by the FDA and is allowed to be used in physicians' offices, 
it could dramatically improve the treatment of heroin addiction in the 
U.S.
    The current heroin treatment situation is ironic. Through research 
we have developed more effective treatments than ever before. We have 
the medicines I just described. We have strong evidence for the 
efficacy of counseling and psychotherapy in combination with 
medications that can produce impressive rehabilitation of heroin users. 
But we have an inadequate number of treatment slots and inadequate 
funding of the slots that do exist. Medication alone has only minimal 
benefits compared to the much greater effects of counseling and 
psychotherapy for patients in methadone or other medical treatments.
    In summary Mr. Chairman, we are in the midst of the highest 
availability of relatively pure heroin in our recorded history. 
Fortunately we have effective treatments including new medications that 
are coming on line. One of them, buprenorphine, is well advanced in the 
FDA approval process and is being considered for use in a new approach 
to opiate addiction. This new approach, in keeping with the scientific 
data, would allow physicians to treat heroin addiction in their offices 
just as we treat any other medical problem.
    Mr. Chairman thank you again for inviting me to testify here today. 
The issue of teen heroin abuse is a national problem. I hope my 
testimony will help you and your colleagues to move forward to 
implement the next phase of our nation's war on drugs--ensuring that 
all of our heroin addicts have access to these effective treatment 
options.

    Senator Grassley. In the meantime, thank you, Senator 
Biden, for your participation and your expertise in this area.
    The meeting is adjourned.
    [Whereupon, at 12:38 p.m., the Caucus was adjourned.]

</pre></body></html>
